<html>
<title> - OVERSIGHT HEARING ON CHANGING DEMANDS AND WATER SUPPLY UNCERTAINTY IN CALIFORNIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      CHANGING DEMANDS AND WATER SUPPLY UNCERTAINTY IN CALIFORNIA

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 12, 2016

                               __________

                           Serial No. 114-49

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                         
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-918 PDF                       WASHINGTON : 2016                          

              
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8becfbe4cbe8fef8ffe3eee7fba5e8e4e6a5">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 
                                 
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                               ---------                                
                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 12, 2016...........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     7
        Prepared statement of....................................     8
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5
    LaMalfa, Hon. Doug, a Representative in Congress from the 
      State of California........................................     9

Statement of Witnesses:
    Azhderian, Ara, Water Policy Administrator, San Luis & Delta-
      Mendota Water Authority, Los Banos, California.............    23
        Prepared statement of....................................    24
    Borck, Bob, Skipper, Fishing Vessel Belle J II, Eureka, 
      California.................................................    19
        Prepared statement of....................................    20
    Murillo, David, Mid-Pacific Regional Director, Bureau of 
      Reclamation, U.S. Department of the Interior, Sacramento, 
      California.................................................    15
        Prepared statement of....................................    17
    Sutton, Jeffrey, General Manager, Tehama-Colusa Canal 
      Authority, Willows, California.............................     9
        Prepared statement of....................................    11

Additional Materials Submitted for the Record:
    Hamilton, Scott, Ph.D., Center for California Water Resources 
      Policy & Management, ``Will Increasing Delta Outflow Help 
      Delta Smelt?''.............................................    46
                                     


 
 OVERSIGHT HEARING ON CHANGING DEMANDS AND WATER SUPPLY UNCERTAINTY IN 
                               CALIFORNIA

                              ----------                              


                         Tuesday, July 12, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, McClintock, 
Lummis, LaMalfa, Denham, Newhouse, Bishop (ex officio), 
Huffman, Costa, Ruiz, and Torres.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order.
    The Water, Power and Oceans Subcommittee meets today to 
hear testimony on an oversight hearing entitled Changing 
Demands and Water Supply Uncertainty in California. We will 
start with opening statements, beginning with myself.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today's hearing is about fostering government 
accountability and restoring balance to a region devastated by 
natural and man-made drought. Achieving these objectives will 
help give the Federal Government the metrics to improve our 
environment, while allowing California's farmers to provide 
food and fiber to our Nation and the world.
    This subcommittee is all too familiar with the historic 
drought that has impacted California. While there are various 
estimates of job losses, no one can disagree that number is in 
the thousands. With California providing the vast majority of 
fruits, nuts, and vegetables to grocery stores and tables 
nationwide, the drought has impacted all of us. With this 
year's El Nino, things were finally looking better for 
California. Many reservoirs are at historic capacity and 
farmers can use their water allocations as collateral for 
financing their planting season.
    There are continued disappointments, however, as evidenced 
by the chart on the TV screen, which compares outflows to the 
ocean from this year to the last. It basically says that 350 
percent more water flowed through the Delta so far this year, 
but that water users in Southern California were only allowed 
to capture 50 percent more than last year. As a result, they 
only have 5 percent of their water allocation.
    Despite some general improvements, the U.S. Fish and 
Wildlife Service and the National Marine Fisheries Service have 
done their best to, as one of our water witnesses will say, 
``pull the rug out from under our feet'' with proposed Federal 
regulations. These additional bites at the apple contradict 
what another arm of the Federal Government, the Bureau of 
Reclamation, has provided in the form of water allocations. 
This proves two things: what one Federal agency gives, another 
can take away; and Federal agencies are not communicating with 
each other, a recurring theme under this and prior 
administrations.
    What makes matters worse is that many are charging that the 
proposed fish flows were not based on scientific justification 
or peer review. Once again, the so-called most transparent 
administration in history is anything but. I am not aware of 
anyone who wants to see a species go extinct, but Federal 
actions need to be justified and have tangible goals. As we 
will hear later, the proposed flows for these 3-inch Delta 
smelt lack any controls or metrics to measure the results of 
the action and lack any impact analysis on water users, 
refuges, and other fish and wildlife needs.
    To add insult to injury, these proposed Delta smelt flows 
are to the detriment of the salmon flows. Of course, fish need 
water, but real science, not political science in this case, 
should dictate how much water a species needs.
    These agencies also need to be communicating with 
communities who depend on water from the same system. Instead, 
the proposals took most of the communities by surprise and 
continue to put a cloud over water supplies in parts of 
California.
    While the focus of today is on California, this is a case 
study of Federal unaccountability and confusion that could be 
imposed anywhere else in the Nation. This hearing is part of an 
effort to provide a blueprint for Federal transparency in order 
to avoid further man-made issues. The Federal Government can 
clearly do better, although the bar is pretty low in this case.
    We have before us experts who understand these matters 
firsthand. I thank them for traveling here. I also want to 
thank our colleague, Mr. LaMalfa, for asking for this hearing.
    I now recognize the Ranking Member, Mr. Huffman, for his 
statement.
    [The prepared statement of Mr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today's hearing is about fostering government accountability and 
restoring balance to a region devastated by natural and man-made 
drought. Achieving these objectives will help give the Federal 
Government the metrics to improve our environment while allowing 
California's farmers to provide food and fiber to our Nation and the 
world.
    This subcommittee is all too familiar with the historic drought 
that has impacted California. While there are various estimates of job 
losses, no one can disagree that they number in the thousands. With 
California providing the vast majority of fruits, nuts and vegetables 
to grocery stores and tables nationwide, the drought has impacted all 
of us.
    With this year's El Nino, things were finally looking better for 
California. Many reservoirs are at historic capacity and farmers can 
use their water allocations as collateral for financing the planting 
season. There are continued disappointments, however, as evidenced by 
the chart on the screen (see below), which compares outflows to the 
ocean from this year to the last. It basically says that 350 percent 
more water flowed through the Delta so far this year, but that water 
users south of there were only allowed to capture 50 percent more than 
last year. As a result, they only have 5 percent of their water 
allocation.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Source: San Luis & Delta-Mendota Water Authority

    Despite some general improvements, the U.S. Fish and Wildlife 
Service and the National Marine Fisheries Service have done their best 
to, as one of our water witnesses will say, ``pull the rug out from 
under our feet'' with proposed Federal regulations. These additional 
bites at the apple run contrary to what another arm of the Federal 
Government--the Bureau of Reclamation--has provided in the form of 
water allocations. This proves two things: what the Federal Government 
gives, it can certainly take away; and Federal agencies are once again 
contradicting each other, a recurring theme under this and prior 
administrations.

    What makes matters worse is that many are charging that the 
proposed fish flows were not based on scientific justification or peer 
review. Once again, the so-called most transparent administration in 
history is anything but. I'm not aware of anyone who wants to see a 
species go extinct, but Federal actions need to be justified and have 
tangible goals. As we will hear later, the proposed flows for the 3-
inch Delta smelt lack any controls or metrics to measure the results of 
the action and lack any impact analysis on water users, refuges, and 
other fish and wildlife needs. To add insult to injury, these proposed 
Delta smelt flows would have been contrary to the salmon flows. Of 
course fish need water, but real science--not political science in this 
case--should dictate how much water a species needs.

    And there needs to be prior conversation with the communities who 
depend on water from the same system. Instead, the proposals took most 
communities by surprise and continue to put a cloud over water supplies 
in parts of California.

    While the focus of today is on California, it is a case study of 
Federal unaccountability and confusion that could be imposed anywhere 
else in the Nation. This hearing is part of an effort to provide a 
blueprint for Federal transparency in order to avoid further man-made 
issues.

    The Federal Government can clearly do better, although the bar is 
pretty low in this case. We have before us experts who understand these 
matters firsthand. I thank them for traveling here and I also want to 
thank our colleague, Mr. LaMalfa, for asking for this hearing.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman.
    I want to welcome the witnesses, especially my constituent, 
Mr. Borck, who has come a long way from Humboldt County, 
California.
    This is the last week, Mr. Chairman, that we are here 
before heading back to our districts for 7 weeks. I think it is 
important to point out that when we return, we will have only 8 
weeks left in this Congress. There are a number of very 
important issues that we ought to be addressing; unfortunately, 
we are here once again in this subcommittee wasting taxpayer 
dollars on a farce of a hearing to attack the Endangered 
Species Act and blame environmental protections for 
California's drought, even though this preposterous claim has 
been debunked time and again. But I guess I really shouldn't be 
surprised.
    The standard bearer right now for the Republican party, 
Donald Trump, famously said a few weeks ago in California's 
Central Valley that there is no drought. He went on to make the 
same claims that we are going to hear today, blaming water 
shortages on the Endangered Species Act. His statement on 
California's drought was rightfully mocked by experts, found to 
be false by nonpartisan, independent fact checkers, and yet 
apparently that fact checking did not sink in here in this 
Congress.
    So, let me share a few facts. Fact one, the 2014 water year 
was the third driest in recorded history, and according to 
experts, paleontologists, folks who study tree ring records, 
they conclude the current drought in California is likely the 
most severe in 1,200 years. According to the U.S. Drought 
Monitor, 100 percent of the state is currently experiencing 
some level of drought. To say there is no hydrological drought 
in California is absurd.
    Another fact, the Department of the Interior estimates that 
the Endangered Species Act accounted for a mere 2 percent of 
the water supply reduction in the Central Valley Project (CVP) 
water deliveries in the year 2014 and similar small impacts in 
2015. In other words, if there was no Endangered Species Act, 
if my Republican colleagues got everything they want, simply 
eliminated the Endangered Species Act, they would get about 2 
percent more water in the year 2014, maybe a little bit more 
than that in 2015.
    Third fact, California's State Water Board estimated that 
in 2015, of all the runoff in the Bay Delta watershed that 
flowed to San Francisco Bay, in other words, the water that 
Donald Trump says was being ``shoved to the sea by 
environmentalists,'' only 2 percent of this runoff actually 
flowed out to the ocean solely for environmental protection. 
The vast majority was released to keep the system from salting 
up, for salinity control, so that we could continue to have 
that water used by agriculture, by cities, by millions of 
people who depend on it.
    While we are in fact check mode, I want to also examine 
this notion that somehow California's farming industry is not 
getting water because of the Endangered Species Act. While some 
people with vested interests continue to peddle this fiction, 
the numbers tell a different story. Even in this fifth year of 
a historic drought, millions of acre-feet of water are being 
delivered to major agricultural water users. For example, one 
of the Republican witnesses today, the Tehama-Colusa Canal 
Authority, will get 100 percent of its maximum water allocation 
this year. The other Republican witness represents a large 
group of Ag. users in the San Joaquin Valley that includes the 
San Joaquin Valley exchange contractors, and they are projected 
to get 100 percent of their maximum water allocation of around 
800,000 acre-feet, for free by the way.
    So, make no mistake, Mr. Chairman, a tremendous amount of 
water is being delivered to agriculture during this drought. In 
fact, if you average together all the CVP deliveries for all 
the different contractors, most of whom are agricultural water 
users, the CVP is expected to deliver about 60 percent of 
maximum contract quantities this year.
    Now, some junior contractors will be significantly impacted 
much more than those that are getting 100 percent or those that 
are getting high allocations. That is because they have no 
water rights, that is because that is the way the system works. 
But it does not mean they will have no water, because they will 
buy water from some of those that are getting the high 
allocations, they will turn to other sources, and they will 
have some water, even though there will be sacrifice, as you 
would expect in the fifth year of a critical drought.
    It is true that much of the water has been made available, 
and this is an important point because year after year state 
and Federal agencies have taken water that was supposed to be 
used to sustain California's fisheries and they have redirected 
it, primarily to powerful agricultural interests. Fisheries 
protections have been cut to the bone and the result has been a 
disaster for salmon fishermen. There is a zero buffer for 
endangered fish in this drought.
    Federal officials recently announced that there was a 97 
percent mortality rate for juvenile Sacramento River winter-run 
salmon in 2015. The year before that it was 95 percent 
mortality. So, there is extreme hardship for the families, 
communities, and tribes who depend on salmon. There are jobs on 
the ecosystem side of this water system as well, and that is 
something that we will continue to point out.

    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans

    Mr. Chairman, this is the last week that we're here before heading 
back to our districts for 7 weeks. I want to point out that when we 
return, we only have 8 weeks left in this Congress. Yet instead of 
working on a number of important issues we've failed to address, we're 
here once again wasting taxpayer dollars on another farce of a hearing 
to attack the Endangered Species Act and blame environmental 
protections for California's drought, even though this preposterous 
claim has been debunked time and time again.

    I guess I shouldn't be surprised. The leader of the Republican 
Party, Donald Trump, said recently, ``There is no drought,'' and went 
on to make the same claims we'll hear today blaming water shortages on 
the Endangered Species Act. The Donald's statement on California's 
drought was rightfully mocked by experts and found to be false by non-
partisan, independent fact checkers. Apparently my Republican 
colleagues ignored the memo on this, so let me share some facts now.
    <bullet> Fact one, the 2014 water year was the third driest in 
            recorded history and according to paleontological and tree-
            ring records, some experts conclude the current drought is 
            California's most severe in 1,200 years. According to the 
            U.S. Drought Monitor, 100 percent of California is 
            currently experiencing some level of drought. To say there 
            is no hydrological drought in California is simply absurd.

    <bullet> Another fact, the Department of the Interior estimates 
            that the Endangered Species Act accounted for a mere 2 
            percent of the water supply reduction in CVP water 
            deliveries in 2014 and current estimates suggest a 
            similarly small impact in 2015.

    <bullet> Third, California's State Water Resources Control Board 
            estimated that in 2015, of all the runoff in the Bay Delta 
            watershed that flowed to San Francisco Bay--in other words 
            the water that Donald Trump said was being ``shoved out to 
            sea''--only 2 percent of this water flowed out to the ocean 
            solely for environmental protection. The vast majority of 
            this water was released for salinity control to protect 
            California's farm and drinking water supplies from being 
            spoiled.

    While we're in fact check mode, I also want to examine this notion 
that somehow California's farming industry is not getting water because 
of the Endangered Species Act. While some people with vested business 
interests have tried to peddle this fiction, the numbers tell a very 
different story. Even in this fifth year of historic drought, millions 
of acre-feet of water are being delivered to major agricultural water 
users. For example, one of the Republican witnesses before us today, 
the Tehama-Colusa Canal Authority, is expected to receive 100 percent 
of its maximum water allocation in 2016.
    The other Republican witness represents another large group of 
agricultural water users--the Exchange Contractors--which is projected 
to receive 100 percent of its maximum water allocation of around 800 
thousand acre-feet. Make no mistake, Mr. Chairman, a tremendous amount 
of water is being delivered to agriculture during this drought. In 
fact, if you average together total water deliveries this year for all 
CVP contractors, most of whom are agricultural water users, the CVP is 
projected to deliver approximately 60 percent of maximum contract 
quantities this year.
    It's also true that much of this water has been made available 
because year after year state and Federal agencies have taken water 
that was supposed to be used to sustain California's fisheries and 
redirected it, primarily to powerful agricultural interests. Fisheries 
protections have been cut to the bone and the result has been a 
disaster for salmon fishermen.
    Federal officials recently announced that there was a 97 percent 
mortality rate for juvenile Sacramento winter-run salmon in 2015. The 
year before, we had a 95 percent mortality rate. Fishery managers have 
severely restricted the commercial salmon season off the West Coast 
because of high salmon mortality in California. This comes after a 
failed salmon season last year and a virtually canceled Dungeness crab 
season.
    Right now, many fishermen and their families are hanging on by a 
thread. Fishermen are struggling to pay mortgages. Boats are being sold 
or scrapped because their owners can't pay mooring fees. Homes have 
been repossessed. Restaurants, hotels and other retail and service 
businesses are struggling. Simply put, the human impact has been 
devastating on the many small business owners and workers whose 
livelihoods depend on healthy fish runs. Any further weakening of 
existing fishery protections will put many of California's fisheries 
and the jobs they support on the path to extinction.
    While I agree that California's agricultural industry is important, 
it's long past time for the Republican Members of this subcommittee to 
recognize that there are thousands of other jobs in non-agricultural 
industries that also rely on California's water supply. Healthy 
ecosystems create and support jobs as well, and this subcommittee needs 
to recognize that the thousands whose jobs and livelihoods depend on 
water to maintain salmon and other fisheries matter in this debate.

    I yield back.

                                 ______
                                 

    Dr. Fleming. The gentleman yields.
    Dr. Gosar is now recognized.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman, for holding this 
important hearing.
    Today, we will hear another narrative of Federal 
dysfunction. Thanks to much needed precipitation this year, 
many Californians began to see the light at the end of the 
drought tunnel. Yet, here we are today holding another hearing 
on how two Federal fish agencies are making the light dimmer by 
undermining the water supply mission of another Federal agency, 
the Bureau of Reclamation.
    Many in the western water world have been frustrated for 
years that the Bureau of Reclamation has not been able to stand 
up to the never-ending demands of the U.S. Fish and Wildlife 
Service, the National Marine Fisheries Service, and the 
litigants who fuel their missions. Based upon the testimony, 
today's circumstances are no different.
    The fish agencies have based their latest demands on the 
premise that more water equals more fish. That notion has 
failed to work, as more water has been dedicated to fish, but 
their populations continue to dwindle, mainly due to ocean 
conditions, predatory fish, and other natural factors.
    These agency proposals for more water midway through the 
irrigation season were not based on transparency. They not only 
failed to communicate adequately to water users, but they 
couldn't even communicate to each other. For example, one 
agency wanted to hold back water in reservoirs to supposedly 
benefit salmon, while the other wanted to drain the water to 
protect the Delta smelt.
    These two agencies have direct jurisdiction over the 
Endangered Species Act, and it is clear they cannot harmonize 
their views on two different fish within the same watershed. It 
is time for a holistic approach on managing these species and 
to have one proposal, not two. Furthermore, these agencies need 
to be reorganized to avoid this situation. But don't take my 
word for it, take our President's, who proposed the same ideas 
a few years ago. So if you will look at the video, I would like 
to play 22 to 45.
    [Video shown.]
    Dr. Gosar. He is referring to management of Pacific salmon 
and steelhead. Both agencies also manage Atlantic salmon and 
sea turtles, but as you will see today, both agencies manage 
species within the same watershed and there is simply no 
coordinated plan when these species' supposed needs conflict 
with each other. Meanwhile, the Bureau of Reclamation and its 
water users are left hanging in the political whims of this 
Administration.
    For this reason, I am working with Mr. LaMalfa on this much 
needed reorganization proposal. This is just one way to fix 
this mess. There needs to be more transparency, more 
independent peer review, and more collaboration between Federal 
agencies themselves and with those who work with them.
    What is clear is that the process is broken and that the 
Federal status quo is not working for species, farmers, 
ranchers, and communities that depend on our natural resources. 
Defending the way the agencies have done business in this 
latest California saga is similar to a doctor ignoring the 
causes of sickness that could be cured.
    I look forward to today's hearing. And with that, I yield 
back.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul Gosar, a Representative in Congress 
                       from the State of Arizona
    Thank you for holding this important hearing.
    Today, we will hear another narrative of Federal dysfunction. 
Thanks to much-needed precipitation this year, many Californians began 
to see the light at the end of the drought tunnel. Yet, here we are 
today holding a hearing on how two Federal fish agencies are making 
that light dimmer by undermining the water supply mission of another 
Federal agency, the Bureau of Reclamation.
    Many in the western water world have been frustrated for years that 
the Bureau of Reclamation has not been able to stand up to the never-
ending demands of the U.S. Fish and Wildlife Service, the National 
Marine Fisheries Service, and the litigants who fuel their missions. 
Based upon the testimony, today's circumstance is no different.
    The fish agencies have based their latest demands on the premise 
that more water equals more fish. That notion has failed to work, as 
more water has been dedicated to the fish, but their populations 
continue to dwindle mainly due to ocean conditions, predatory fish and 
other natural factors.
    These agencies proposals for more water midway through the 
irrigation season were not based on transparency. They not only failed 
to communicate adequately to water users, but they couldn't even 
communicate to each other. For example, one agency wanted to hold back 
water in reservoirs to supposedly benefit salmon while the other wanted 
to drain the water to protect the Delta smelt.
    These two agencies have direct jurisdiction over the Endangered 
Species Act and it's clear that they cannot harmonize their views on 
two different fish within the same watershed. It's time for a holistic 
approach on managing these species and to have one proposal, not two. 
Furthermore, these agencies need to be re-organized to avoid this 
situation. But, don't take my word for it, take our President's, who 
proposed the same idea a few years ago.

    Watch video clip at https://www.youtube.com/watch?v=BFcWz9eyovA

    Now, he's referring to management of Pacific salmon and steelhead. 
Both agencies also manage Atlantic salmon and sea turtles. But, as we 
will see today, both agencies manage species within the watershed and 
there's simply no coordinated plan when those species supposed needs 
conflict with each other. Meanwhile, the Bureau of Reclamation and its 
water users are left hanging in the political whims of this 
Administration.
    For this reason, I'm working with Mr. LaMalfa on this much-needed 
reorganization proposal.
    This is just one way to fix this mess. There needs to be more 
transparency, more independent peer review and more collaboration 
between Federal agencies themselves and with those who work with them.
    What's clear is that the process is broken and the Federal status 
quo isn't working for species, farmers and ranchers and the communities 
that depend on our natural resources. Defending the way the agencies 
have done business in this latest California saga is similar to a 
doctor ignoring the causes of sickness that could be cured.

    I look forward to today's hearing.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman.
    We are now ready to hear from our panel of witnesses. I 
will remind our panel that you will have 5 minutes to give your 
testimony, but whatever the length of your written testimony, 
it will be accepted as a permanent record.
    First we have Mr. Jeffrey Sutton, General Manager of the 
Tehama-Colusa Canal Authority, from Willows, California.
    Mr. David Murillo, Director of the Mid-Pacific Region of 
the Bureau of Reclamation in Sacramento, California. Mr. 
Murillo is accompanied by two individuals, Dr. Ren Lohoefener, 
Director of the Pacific Southwest Region of the U.S. Fish and 
Wildlife Service in Sacramento, and Mr. Barry Thom, Deputy 
Regional Administrator of the National Marine Fisheries Service 
in Portland, Oregon.
    Then we have Mr. Bob Borck, a boat skipper based out of 
Eureka, California.
    And finally, Mr. Ara Azhderian, Water Policy Administrator 
of the San Luis & Delta-Mendota Water Authority, which is based 
in Los Banos, California.
    I now recognize Mr. LaMalfa to introduce the first witness.

    STATEMENT OF THE HON. DOUG LaMALFA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate you 
having this hearing and your attention to this tough issue we 
have going in California.
    Over the last several decades, we have seen increasing 
regulatory requirements imposed on the Central Valley Project 
that have strangled its ability to provide water for all 
Californians. CVP is now operated with a stronger emphasis on 
managing flows for fish than for the millions of Californians 
who have built it and rely upon it.
    Today, we are discussing two contradictory proposals by two 
wildlife agencies who, clearly, do not communicate with each 
other. One, NMFS, proposes drastically cutting water releases 
from the Shasta Reservoir to allegedly assist salmon, and cut 
Californians' water supply. The Fish and Wildlife Service 
proposes drastically increasing water releases from Shasta 
Reservoir, allegedly to assist Delta smelt, and cut 
Californians' water supplies.
    I am really glad that Jeff Sutton could join us today. I 
have worked a long time with him in Northern California. He 
comes from the Tehama-Colusa Canal Authority. As their General 
Manager, he has worked tirelessly to find solutions on all 
sides of the issues, working collaboratively with the 
conservation interests as well as keeping the water flowing. 
So, Jeff, thank you for joining us today.
    Mr. Chairman, thank you for the opportunity to introduce 
and comment.
    Dr. Fleming. OK. Mr. Sutton, you are now recognized for 5 
minutes.

  STATEMENT OF JEFFREY SUTTON, GENERAL MANAGER, TEHAMA-COLUSA 
              CANAL AUTHORITY, WILLOWS, CALIFORNIA

    Mr. Sutton. Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee, thank you for this opportunity to 
speak today. Again, my name is Jeff Sutton. I am General 
Manager of the Tehama-Colusa Canal Authority.
    I represent 17 water districts through 4 counties on the 
west side of the Sacramento Valley. We have a 140-mile canal 
system serving a variety of crops, about 1,000 family farms.
    This California drought, everyone has suffered, communities 
have suffered, the environment has suffered, the fish have 
suffered, and the farmers have suffered. It has been a rough 
time. And let me tell you, this is an area that I am very 
passionate about. My family farming operation that I am 
involved in goes back to the 1870s. I am fifth generation and 
my son is number six, so we have been there a long time working 
for something we are proud of. A lot of our communities are a 
church, a Ford dealership, a John Deere dealership, and a 
fertilizer store. These are family farms that are proud of what 
they do, and finding ourselves kind of being defensive for the 
folks that provide the water that feeds our country and the 
Nation. It is just a strange place to be to see our farmers 
vilified in recent times. We believe we provide a lot to the 
country and the world.
    The recent drought--2008 and 2009 were tough years. We had 
a couple good years between then, but 2014 and 2015 were 
extremely hard. For the Tehama-Colusa Canal Authority Service 
Area, we are those junior water right holders. We are CVP water 
service contracts, all 17 districts. We had zero percent 
allocation for 2 straight years. During that time, we fallowed 
upwards of 70,000 acres. We had to go through amazing 
gymnastics to prevent the destruction of permanent crops that 
could not be fallowed through some of those water transfers 
that, by the way, when we do those water transfers, we have to 
work with the U.S. Fish and Wildlife Service, because if the 
water cannot be delivered, a lot of land was put out because of 
the lack of ability to deliver. But if you want to transfer 
some from a senior water right holder, you have to jump through 
a lot of hoops and regulatory issues, CEQA, NEPA, to deal with 
the fact that you are going to fallow lands that have 
endangered giant garter snakes on them. And that is another 
species that is harmed by some of those actions that we are 
talking about today that are not even really analyzed in the 
scheme of this entire regulatory regimen. So, those are 
challenges that we have to work together to get through.
    2015 came along--did it solve the problem? No. Congressman 
Huffman, is the drought completely over? No. But I will tell 
you, reading the Sacramento Bee flying in yesterday, Shasta 
Reservoir, that most of us rely on as the largest reservoir in 
California, is 108 percent of historical average today.
    Finding ourselves at a time we rejoiced with 100 percent 
allocation, you are absolutely right, our district did get 100 
percent allocation, and it actually set us up for what was a 
scarier year than 2014 and 2015 with these actions that have 
been proposed. We had National Marine Fisheries come in and 
want to reduce releases out of Shasta to the point that we 
could not even take water anymore. We would have been 
completely cut off, this after we had planted all our crops and 
made that investment, taken out loans, and taken our documents 
preparing for a bad year to do water transfers and threw them 
in the garbage can--they wouldn't have done us any good anyway, 
because it was too late to do water transfers. The lack of 
certainty after your planting date, after you have been awarded 
this, and the circumstances that would have befallen our 
farmers were an absolute tragedy.
    Further--and I see my time is running terribly short--but 
we are also--independently of our own volition and cost, the 
NMFS action would have stopped us from doing something that we 
are spending our own money on to help Delta smelt, to run it 
through a bypass. We are pumping the water, we are operating 
and maintaining everything, and that would have been prohibited 
by what NMFS was doing.
    In conclusion, we just have to find a way. The water users 
are engaged. Congressman Huffman, you know our Red Bluff 
project. I mean, we have done a lot. The fish have a better 
situation than ever, but we have to start working together. We 
need one biological opinion and we need collaboration and 
science-driven process while we work together to get one 
biological opinion, and help our farmers and the fish. Thank 
you.
    [The prepared statement of Mr. Sutton follows:]
Prepared Statement of Jeffrey P. Sutton, General Manager, Tehama-Colusa 
                            Canal Authority
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, thank you for the opportunity to appear before you today.
                              introduction
    My name is Jeff Sutton, and I am the General Manager of the Tehama-
Colusa Canal Authority (TCCA), a Joint Powers Authority comprised of 
seventeen (17) Water Districts, all of whom are Central Valley Project 
(CVP) Water Service Contractors.
    The 150,000 acre service area that the TCCA serves spans four 
counties (Tehama, Glenn, Colusa, and Yolo Counties) along the west side 
of the Sacramento Valley, providing irrigation water to a diverse 
agricultural landscape and over 1,000 family farms that produce a 
variety of crops, including almonds, pistachios, walnuts, olives, 
grapes, prunes, rice, tomatoes, sunflowers, melons, vine seeds, 
alfalfa, and irrigated pasture. The water provided to these lands 
results in an annual regional economic benefit of over $1 billion.
    The TCCA diverts water from the Sacramento River through the 
recently constructed Red Bluff Fish Passage Improvement Project, a 
quarter mile long, positive barrier, flat plate fish screen (one of the 
largest of its kind in the world), and new pumping plant, that provided 
for the retirement of the operation of the Red Bluff Diversion Dam, and 
the elimination of the fishery impacts associated therewith. This 
Project, implemented in partnership with the U.S. Bureau of Reclamation 
(USBR) created the capacity for reliable diversions of irrigation 
within the TCCA service area while also providing for unimpeded fish 
passage to prime spawning habitat on the upper Sacramento River for 
several threatened and endangered species (Winter and Spring Run 
Chinook Salmon, Steelhead, and Green Sturgeon). Included in the project 
is a 20+ acre mitigation site that includes extensive riparian habitat 
and a shallow side channel off the main stem of the Sacramento River 
designed specifically to benefit juvenile salmonid rearing habitat. The 
Red Bluff Fish Passage Project was recognized with the Association of 
California Water Agencies Clair Hill award for water project of the 
year, and the large water project of the year award from the district 
and western regional divisions of the American Society of Civil 
Engineers.
                         the california drought
    From 2012-2015, California suffered greatly as a result of severe 
drought conditions. This prolonged dry period pushed the California 
water supply system to the breaking point at a time when it was already 
vulnerable due to a variety of factors including: continued population 
growth coupled with a lack of corresponding investment in new water 
infrastructure; and, most impactful, an increasingly burdensome 
regulatory environment that has continued to erode the supply side of 
the equation, reducing the flexibility, reliability, and operational 
viability of both the Central Valley Project and the State Water 
Project. As a result, severe and lasting impacts have been felt in all 
sectors during this drought crisis--urban, environmental, and 
agricultural.
    In 2014 and 2015, for the first time in the history of the TCCA 
service area, all 17 water districts and 150,000 acres of prime 
farmland received an allocation of zero percent pursuant to their CVP 
water contracts. This resulted in extensive fallowing of farms 
(estimated at approximately 70,000 acres). In order to survive, TCCA 
growers resorted to the only alternative available to them. Paying 
others to fallow their fields, at great near-term expense in order to 
avoid the long-term economic catastrophe that would occur with the loss 
of permanent orchard crops.
    These impacts have reverberated throughout our communities, and are 
not merely being felt by the farmers who have had to forego the 
planting of their fields. This crisis has also caused secondary impacts 
to agricultural based inputs (such as fuel companies, tractor 
companies, parts stores, fertilizer and seed companies, dryers, mills, 
and the local labor force), and tertiary impacts to other local 
businesses (stores, restaurants, auto dealers, etc.), as well as 
greatly affected local municipal services.
    This historic lack of water supply has been felt throughout the CVP 
service area, with the Friant Water Authority and San Luis Delta 
Mendota Water Authority water districts also receiving a zero percent 
allocation in 2014 and 2015. That represents well over 2 million acres, 
of some of the most productive farmland in the world, receiving not a 
drop of surface water from the CVP. In these rural counties, these 
farms are the factories that fuel our economy. Without the water 
necessary to fuel this engine, it all comes to a screeching halt.
    While the extremely dry period of hydrology currently being 
experienced in California has greatly contributed to the dire 
situation, regulatory actions, based on questionable science that have 
failed to provided the stated intentions of improving the fishery and 
environmental conditions, have frustrated efforts to effectively manage 
our water resources in an effective and efficient manner.
    During similar California dry periods in 1977, and the drought 
experienced from the late 1980s through the early 1990s, while 
challenging, did not present the same desperation and impacts that are 
being felt today. During those experiences, reduced allocations 
occurred, but we were able to receive deliveries of 25-60 percent of 
the water to CVP agricultural water service contractors. Water storage 
projects were built to serve as our savings accounts during times of 
drought, a dynamic that had served us well. However reduced 
flexibility, lack of investment, and the repurposing of these resources 
for environmental purposes threaten the continued viability of our 
water supply system.
    What has changed? First, legislative mandates and regulatory 
actions have resulted in lost water supply yield and reduced 
operational flexibility for our existing facilities. Second, permitting 
hurdles and a lack of coordination have prevented new projects from 
being realized.
    Specifically, actions taken pursuant to the Central Valley Project 
Improvement Act, the USFWS and NMFS Endangered Species Act biological 
opinions related to the operations of the CVP, the Clean Water Act, and 
the Trinity Record of Decision have collectively impacted the 
deliveries of the CVP and the State Water Project (two of the largest 
water supply projects in the United States) by millions of acre-feet.
    When combined, an absence of coordination coupled with regulatory 
hurdles have prevented any significant investment in new statewide 
water storage in California since the 1970s, during which time the 
population of the state has more than doubled. In short, while the 
demand for water has increased, our tools to manage and supply this 
vital resource have eroded. This is a recipe for disaster, and has 
resulted in impacts to California communities, agriculture, and the 
environment.
                        2016, a hope for relief
    During the winter of 2016 significant rains in Northern California 
relieved drought conditions at CVP and SWP facilities. For example, 
Shasta, Oroville, and Folsom reservoirs, all of which had been reduced 
to historic lows in the previous drought years, filled to over 100 
percent of their historical capacity. The Sacramento, Yuba, and Feather 
River systems, as well as many of their tributaries, ran high 
throughout much of the winter and well into the spring, resulting in 
surplus conditions in the Bay Delta. Shasta's recovery, in particular, 
was a welcomed relief to the CVP, climbing from a low point of 1.3 
million acre-feet (AF) (which was at 1.0 million AF in 2014) to peaking 
at over 4.2 million AF (with a capacity of 4.5 million AF). A 
significant improvement compared to the previous years, where the high 
water marks were 2.4 million AF and 2.7 million AF.
    Further, the winter of 2016 provided a significantly increased and 
welcomed snow pack from previous years, as well as served to greatly 
benefit the regional aquifers that had been greatly exercised 
throughout the previous dry years. While the rumored ``Godzilla El 
Nino'' did not show up in full force, failing to provide complete 
recovery for all of California from the previous 4 dry years, it did 
significantly and substantially improve hydrologic conditions 
throughout the state, foretelling of an anticipated reprieve from the 
draconian water reductions and mandated conservation measures that 
befell California water agencies the previous 2 years.
    On April 1 of 2016, the good news became official for TCCA water 
users and others, an allocation announcement from USBR of 100 percent 
for TCCA water users and other north of the Delta agricultural water 
service contractors, the Sacramento River Settlement Contractors, the 
San Joaquin Exchange Contractors, and for CVP M&I water users.
    Friant water users did not see the same increases due to less 
recovery on the east side of the San Joaquin Valley, but did see 
significantly increased water allocations and it appeared would not 
have to fear a call on their water as a result of the inability to pump 
sufficient water to meet the contract terms for the Exchange 
Contractors, who have senior water rights on the San Joaquin River.
    Due to regulatory conditions that greatly reduced USBR's ability to 
pump from the Delta throughout the winter and spring, despite the 
incredibly significant flows being experienced, the SLDMWA contractors 
continued to experience severe cutbacks, but did receive an allocation 
of 5 percent, with hope that circumstances could improve as the water 
year went on. This was a slight improvement over the previous 2 years 
that were zero percent. Unfortunately, hundreds of thousands of acre-
feet of water were lost to the project as a result of the biological 
opinions that prevented water from being pumped and stored to provide 
some desperately needed relief to the farms and refuges on the west 
side of the San Joaquin Valley. This lost opportunity places further 
burden on the upstream reservoirs later in the year due to the 
inability to operate the CVP as planned. The Delta facilities allow for 
pumping to capitalize on the winter and spring flows below Shasta, and 
that accrue to the Delta, to be stored in San Luis Reservoir. This lost 
opportunity, due to regulatory constraints, continues to impair the 
ability to operate the CVP as designed, causing significant impacts 
throughout an integrated system.
                         fws and nmfs proposals
    Shortly thereafter, the U.S. Fish and Wildlife Service (USFWS) and 
National Marine Fisheries Service (NMFS) proposed actions mandating 
mutually exclusive prescriptions that I believe posed a significant 
threat to the 2016 water operations plan of the CVP and its 
contractors.
    The USFWS called for increased summer outflow that would require 
the release from upstream reservoirs of up to 300,000 AF of water for 
the stated purpose of improving smelt habitat. To my knowledge, summer 
outflow had never been considered as an action to benefit smelt and it 
is not a requirement pursuant to either of the last two intensive 
efforts to produce an ESA Biological Opinion for Delta smelt conducted 
by the USFWS. Further, the proposal failed to provide substantial 
scientific justification to merit what appeared to be little more than 
a high-risk gamble lacking an identifiable reward. The proposal also 
lacked adequate mechanisms to measure the outcomes of summer outflows 
giving rise to concerns that those proposing them might do so again in 
subsequent years regardless of the fact the potential benefits to the 
smelt could be non-existent while the negative impacts to those relying 
on the water being re-distributed would be certain. Additionally, the 
summer outflows were proposed well after the opportunity to acquire the 
needed quantities of water to achieve them had passed. There was no 
identification of funds to implement the action and it was implemented 
with complete disregard and lack of analysis to the impacts such an 
action would place on water users, refuges, other fish and wildlife and 
needs. Further, it ignored the impacts associated with repurposing this 
Federal funding that had been dedicated to other important 
environmental purposes.
    Simultaneously, NMFS called for planned releases out of Shasta 
Reservoir to be reduced down to 8,000 cfs (significantly less than the 
temperature plan had called, up to 2,500 cfs less during peak demand 
periods in July) throughout the entire summer under claims that this 
was required to provide sufficient cold water throughout the season for 
endangered winter run Chinook salmon. NMFS claims mortality in 2014 and 
2015 of 95 percent and 97 percent of winter run juveniles due to 
coldwater concerns. This claim is not wholly accurate due to their 
admitted lack of any monitoring during high flows on the upper 
Sacramento River at the Red Bluff facilities during high winter flows, 
the time these fish are most likely to migrate downstream. Further, 
NMFS proposed this ultra-conservative approach, despite assurances from 
USBR modeling that they could meet the requested temperature thresholds 
(that were greater than even called for in the NMFS BO).
    As such, we had one agency calling for increased releases from 
upstream reservoirs for one species, while another called for severely 
reduced releases for another species. This, despite the fact that these 
actions are not included in any peer-reviewed regulatory requirement 
that has been through the prescribed Federal process or other analysis 
in regard to the potential impacts on the environment, the economy, or 
the health and welfare of the state of California.
                              the impacts
    The impacts of the NMFS proposed action have already occurred to 
some degree, despite ultimately an agreement obtained by USBR's valiant 
efforts to ensure a more balanced interagency process. Throughout the 
months of May and June, reduced releases caused havoc on Sacramento 
River operations, resulting in some senior water contractors being 
shorted water supply, harm to irrigation pumping facilities due to low 
river elevations, water users having to alternatively pump groundwater 
wells at increased cost and from overly exercised aquifers due to the 
recent drought. Further, this has caused reduced ability to pump from 
the Delta to meet water allocations already announced south of the 
Delta, potentially resulting in shortages, after farmers had already 
taken out loans and expended significant funds to plant crops in 
reliance on receipt of water that was promised.
    Had the prescribed operation that NMFS pursued been implemented, it 
would have led to an array of consequences, including the following:

  1.  TCCA water users and other north of the Delta water service 
            contractors would likely have been substantially or 
            completely deprived of the 100 percent allocation they were 
            allocated, well after all their crops had been planted. 
            This would have occurred after the time that they could 
            have pursued water transfers, leaving them with little or 
            no alternatives except to try to pump groundwater, where 
            available, to enable their crops to survive. It is likely 
            that most or all of the $1 billion of regional annual 
            economic benefit that results from this farming activity 
            would have been substantially lost. Most or all of the 
            annual crops would have been destroyed, including the 
            accompanying habitat benefits provided thereby, that 
            provides significant waterfowl and wildlife habitat, 
            including habitat for the endangered giant garter snake. 
            Worse yet, tens of thousands of permanent crops would 
            likely have been devastated as well. Permanent loss of 
            these investments would have long lasting and deeply felt 
            economic impact to the regional economy. Agricultural 
            businesses and lending institutions would likewise be hard 
            hit.

  2.  Settlement Contractors with senior water rights likewise would 
            not have been able to divert all of the water that they are 
            contractually entitled to, well after they had already 
            planted and incurred substantial cost. This would have 
            resulted in further significant losses in the Sacramento 
            Valley as described above, and great loss of significant 
            quantities of the primary habitat for a variety of 
            specifies, including waterfowl and giant garter snake.

  3.  It is likely that this action would have led to the inability to 
            meet the contractual obligation to the Exchange Contractors 
            as well, resulting in them making a call on the water 
            allocated to the Friant Water Users in Millerton Reservoir. 
            This would cause significant impacts to both of these 
            constituencies.

  4.  The actions to date still may, and certainly would have if fully 
            implemented, deprived the contractors served by the SLDMWA 
            of the slim 5 percent water allocation they received and 
            planned for this year.

  5.  This action would have resulted in severe reductions to the 
            refuge water supply to the detriment of the fish and 
            wildlife, in particular the benefits to the waterfowl 
            dependent on the Pacific Flyway.

  6.  The actions taken already have in increased pressure on Folsom 
            Reservoir, requiring increased releases to make up for the 
            reductions from Shasta. The proposed action, if fully 
            implemented, likely would have placed the American River 
            urban area in another year of panic, as bad, or worse than 
            experienced the past 2 years.

    In summary, the action proposed by NMFS would have had a domino 
effect throughout the entire CVP, resulting in severe impacts to 
communities, farms, and other fish and wildlife needs.
                               conclusion
    The CVP is suffering from a thousand cuts due to inconsistent and 
unbalanced regulatory requirements. Despite many of the reservoirs 
being filled in 2016, CVP operations are running on the ragged edge, 
failing to fulfill the needs of its contractors or the authorized 
purposes of the Project.
    Despite billions of dollars of investment and millions of acre-feet 
being repurposed to benefit the fishery needs, as prescribed by the 
fishery agencies, we continue to see a continued decline in fish 
populations. CVPIA required 800,000 AF of water to be utilized for 
fishery purposes. The water users have funded the ecosystem restoration 
fund to provide billions in resources directed by these agencies to 
assist in fishery recovery. Every major upstream diversion has been 
fitted with a state-of-the-art fish screen. A temperature control 
device was added to Shasta Reservoir to benefit salmon. The biological 
opinions have continued to mandate further actions, reducing pumping 
and adding habitat restoration that have resulted in the rededication 
of more water to the environment and away from water users. Conditions 
for fish, according to the actions prescribed by the agencies, have 
never been better. Despite all of these efforts, the populations 
continue to decline. A more coordinated, science-driven and outcome-
based approach is needed.
    Single species management is not working, as evidenced by the 
current conflict between the above described smelt and salmon actions. 
For every action, there is a reaction. We need to pursue a coordinated, 
holistic, and more all encompassing approach to our problems in order 
to be successful. Working toward the development of a single NMFS and 
USFWS Biological Opinion for smelt and salmon would be a good place to 
start.
    California water users are committed to working toward fishery 
solutions, but not at the expense of their livelihoods and this 
Nation's food supply. The Sacramento River Settlement Contractors have 
undertaken several actions in an effort improve fishery conditions, 
actions undertaken at their own volition and at their own expense. 
South of Delta SWP and CVP contractors have invested hundreds of 
millions of dollars trying to pursue viable solutions to identify 
workable solutions to the Delta problems. TCCA is currently partnering 
to assist on a project to increase food availability to Delta smelt, an 
action that the NMFS proposal would have prohibited. The Fish Passage 
Improvement Project at Red Bluff championed by the TCCA is further 
evidence of our commitment to solving problems.
    A more robust process is needed to ensure that proposed regulatory 
actions are informed by sound science and directed at achieving 
measureable outcomes. In addition, greater priority should be given to 
ensure the interagency coordination needed to quantify how potential 
actions will impact all CVP water users and the environment.
    If we do not find a way to work together in a more coordinated 
fashion that takes into account and respects all water needs, including 
the needs of our communities, agriculture and the environment, I fear 
we are headed for a future where both the Delta smelt and agriculture 
are extinct in California.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Sutton.
    Mr. Murillo, you are recognized.

  STATEMENT OF DAVID MURILLO, MID-PACIFIC REGIONAL DIRECTOR, 
     BUREAU OF RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Murillo. Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee, I am David Murillo, Regional 
Director of the Mid-Pacific Region of the Bureau of 
Reclamation. I am pleased to be here today to discuss changing 
demands on the Central Valley Project in California and actions 
we are taking to manage flow and temperatures for the benefit 
of fish, wildlife, and our water and power customers.
    Joining me are Ren Lohoefener from the Fish and Wildlife 
Service, and Barry Thom from the National Marine Fisheries 
Services.
    My written statement has been submitted for the record, so 
I will summarize that in the interest of time.
    As of this month, the effects of an El Nino winter across 
California have left us with widely varying water supplies. 
Some facilities are near full, others are less than half 
capacity. As you know, despite the variability, Reclamation 
water users, like those beside me today, must operate 
facilities to balance competing demands and to comply with a 
suite of legal requirements.
    In the case of the CVP, that means water rights permitting 
conditions from the California State Water Resource Control 
Board and biological opinions for the protection of fish listed 
under the State and Federal Endangered Species Act.
    This spring and early summer, our agencies have been 
working on a temperature management plan for the Sacramento 
River, as required by the 2009 NMFS biological opinion and 
State Order 90-5, with the primary focus of protecting winter-
run Sacramento River Chinook salmon. The plan is geared toward 
meeting obligations and maintaining commitments for operations 
of the CVP and State Water Project. The plan has also been 
developed to limit impacts to other beneficial uses, such as 
Folsom Reservoir levels, American River temperature, and Delta 
water quality.
    The other option proposed, temperature management point, is 
at a location called Balls Ferry in Shasta County, keeping the 
river there at a 56-degree average daily temperature, as 
required under Order 90-5. Decisionmaking for significant 
changes in real-time operations is being coordinated among the 
partners, including Reclamation, NMFS, the Service, California 
Department of Water Resources, California Department of Fish 
and Wildlife, and the State Board.
    As always, to the extent that Reclamation and the state can 
maximize export pumping from the Bay Delta, particularly during 
any sudden increases in Delta in-flow, we will continue to do 
so, just as we have done in the past. However, since the plan 
does fall somewhat short of the planned schedule for releases 
to the Sacramento River this summer, some adjustments to the 
2016 CVP allocations are possible. Throughout this process, we 
work closely and transparently with CVP water users to explore 
this possibility. We will continue that collaboration.
    That said, and with progressively dryer conditions this 
summer, we are encouraging communities to continue to conserve 
water and operate as efficiently as possible. We recognize that 
has become business as usual for most water users, some of whom 
are alongside me here today. While I cannot give any guarantees 
as to how the year will play out, Reclamation stands ready to 
adjust operations to improve temperature conditions if needed. 
Equally, Reclamation expects the real-time monitoring and 
adjustment opportunities provided for in the plan to allow 
essential flexibility to enable to us meet our commitments, 
while operating within what will be close confines of the law. 
I hope that the many jointly funded projects our agencies 
pursue each year with the water users and environmental 
communities are evidence of our strong ongoing partnership. At 
the operational, financial, and policy levels, we are committed 
to helping California succeed in all years, not just in times 
of drought, flood, or environmental crises.
    In closing, we would like to thank the subcommittee for its 
attention to this issue. These past several years have been 
incredibly challenging, and we are proud of the collaboration 
and creativity the stakeholders have shown in finding ways to 
manage this complicated and important system.
    This concludes my statement. I would be pleased to answer 
any questions at the appropriate time. Thank you.
    [The prepared statement of Mr. Murillo follows:]
  Prepared Statement of David Murillo, Regional Director, Mid-Pacific 
     Region, Bureau of Reclamation, U.S. Department of the Interior
    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am David Murillo, Regional Director for the Mid-Pacific 
Region of the Bureau of Reclamation (Reclamation). I am pleased to 
represent the Department of the Interior (Department) today to discuss 
changing demands on the Central Valley Project (CVP) in California, and 
actions we are taking with our partner agencies to manage river flow 
and temperatures in 2016 for the benefit of fish, wildlife, and our 
water and power customers.
    In February of this year, Reclamation presented testimony before 
this subcommittee describing how 4 years of brutal drought in 
California were transitioning into an El Nino water year in 2015-2016. 
We discussed how these 4 drought years have severely reduced snowpack, 
drawn down reservoir levels and brought about significant groundwater 
withdrawals that have taken their toll on California's water users, the 
environment, the economy and communities across the state. We cautioned 
against the misguided hope of many that one El Nino year would be 
enough to correct for the long running, persistent drought. Against 
that backdrop, we referenced what I continue to see as innovative local 
agreements, adaptive management, and resilience that have all been 
essential to the survival of many farms and small communities.
    Today I can provide an update on conditions, and on the temperature 
and flow considerations that have occupied a great deal of the time, 
energy, and concern for me and the other witnesses here today.
    As of this month, the effects of an El Nino winter across 
California have left the state with widely varying water supplies in 
its network of local, state, and Federal reservoirs. Precipitation 
above the CVP's Shasta Lake was abundant enough this past winter that 
Shasta Dam spent several weeks during the spring in or near flood 
control operations. Conditions in the Trinity River Division of the CVP 
were also improved over recent years. Trinity Reservoir is currently at 
70 percent of the 15-year average as of today, and significant releases 
have been made to the Trinity River to support the Trinity River 
Restoration Program consistent with the Program's 2000 Record of 
Decision. Further to the south, while Folsom Lake on the American River 
reached elevations requiring flood control releases during the winter, 
drought conditions on that basin can still be felt. Unfortunately, 
conditions on the San Joaquin River Basin were much dryer, such that 
New Melones Reservoir is at only 44 percent of its 15-year average for 
this date. These storage levels illustrate the challenging results of 1 
year of average to below-average hydrology when combined with long-
standing drought in these important basins.
    Even in the face of these varying hydrologic conditions, 
Reclamation must operate the CVP to balance the competing demands and 
to comply with a suite of legal requirements, including water rights 
permitting conditions by the California State Water Resources Control 
Board (State Board) and biological opinions (BiOps) for the protection 
of fish species listed under the state and Federal Endangered Species 
Acts (ESA). The National Marine Fisheries Service's (NMFS) 2009 BiOp 
covers ESA-listed steelhead, Chinook salmon and sturgeon, and the U.S. 
Fish and Wildlife Service's (Service) 2008 BiOp applies to Delta smelt. 
Temperature considerations are required under the 2009 NMFS BiOp as 
well as State Board Order 90-5 for the benefit of species in the 
Sacramento River and conditions in the Bay Delta. This spring and early 
summer our agencies have been working on a 2016 temperature management 
plan for the Sacramento River as required by the 2009 NMFS BiOp and 
Order 90-5, with the primary focus of protecting critically endangered 
Sacramento River winter-run Chinook salmon. I know the 2016 Sacramento 
River Temperature Management Plan (SRTMP) is one of the central topics 
of the subcommittee's interest today, and I will focus the remainder of 
my statement on this matter.
    In late June and early July, Reclamation, NMFS and the state of 
California finalized plans to operate the CVP and Shasta Dam consistent 
with temperature requirements for winter-run Chinook salmon and 
transmitted the plan to the State Board. We believe the plan avoids 
excessive mortality to winter-run Chinook salmon that would violate the 
ESA while allowing some flexibility to operate the CVP and State Water 
Project (SWP) to allow Reclamation to take other actions, recommended 
by scientists at the Service, to augment Delta outflow for the benefit 
of critically imperiled Delta smelt, also listed under the ESA. The 
SRTMP recommends an approach to maintain a 56.0+ F daily average 
temperature through the end of September, while ensuring that the 
limited supply of cold water behind Shasta Dam can be fully and 
strategically utilized throughout the season. In addition, this 
approach helps Reclamation meet other obligations and maintain 
commitments for operation of the CVP and SWP. The SRTMP has also been 
developed to limit impacts to other beneficial uses, such as Folsom 
Reservoir levels, American River temperature management for species 
protection, and Delta water quality. The over-arching proposed 
temperature compliance point is a location called Balls Ferry in Shasta 
County, and Order 90-5 requires, keeping daily average water 
temperature in the River at this location at 56.0+ F. The SRTMP calls 
for actual daily releases to be based on real-time monitoring to ensure 
that temperature compliance is accomplished, and other downstream 
diversion, flow, and Delta requirements are met. Decision-making for 
significant changes in real-time operations is being further 
coordinated among the partners including Reclamation, NMFS, the 
Service, California Department of Water Resources (DWR), California 
Department of Fish and Wildlife, and the State Board (collectively, the 
state and Federal agencies).
    The SRTMP includes monitoring activities throughout the summer and 
fall, and check-in points to ensure that sufficient cold water reserves 
are being maintained to meet the temperature management objectives 
identified in the plan. In the event that monitoring shows that cold 
water reserves are being depleted in a way not envisioned in the plan 
(i.e., if the volume of Shasta Reservoir water <49+ F is less than 95 
percent of the volume forecast in the plan), action will be required to 
ensure that the temperature objectives can be met, even if those 
actions have water supply implications. As always, to the extent that 
Reclamation and the state can opportunistically maximize export pumping 
from the San Francisco Bay-Delta (Delta), particularly during any 
sudden increases in Delta inflow, we will continue to do so just as we 
have done in the past. However, since the SRTMP does fall somewhat 
short of the previously announced schedule for releases to the 
Sacramento River this summer, some adjustment to 2016 CVP allocations 
is possible. In the coming weeks, we will be working diligently with 
all CVP water user groups to explore options and tools to address this 
possibility in a reasonably equitable manner. That said, and with 
progressively drier hydrologic conditions throughout the Central Valley 
this summer, our agencies are encouraging communities to continue to 
conserve water and operate as efficiently as possible. We recognize 
that philosophy has become business-as-usual for many water users, some 
of whom are alongside me here today.
    The success of the SRTMP is predicated on how closely actual 
operations align with the predicted hydrologic modeling results. 
Therefore, the SRTMP includes multiple commitments for frequent updates 
to detailed temperature profiles, modeling projections, temperature 
control device gate operations, and meteorological data via weekly and 
monthly conference calls, meetings, and data exchanges. While I cannot 
give any guarantees as to how the year will play out, Reclamation 
stands ready to adjust operations to improve temperature conditions and 
continue compliance with the SRTMP if needed as the season progresses. 
Equally, Reclamation expects that the real-time monitoring and 
adjustment opportunities provided for in the plan will allow it the 
flexibility that is essential to help enable us to meet our commitments 
while operating within the law.
    The development of the SRTMP is itself another example of the 
ongoing collaborative work being undertaken by a broad array of parties 
involved in California water management issues. Since December 2013, 
state and Federal agencies that supply water, regulate water quality, 
and protect California's fish and wildlife have worked closely together 
to manage through the drought and problem-solve with the larger 
stakeholder community. The state and Federal agencies have coordinated 
CVP and SWP operations at the highest level possible, to manage water 
resources through both forward-thinking and real-time efforts. This 
cooperative environment has allowed our agencies, working with the 
State Board, to take advantage of modifications to operational 
standards required under Orders 90-5 and 1641 (D-1641). Those 
collaborative actions have borne fruit, and without the Temporary 
Urgency Change Petitions approved by the State Board, collective CVP 
and SWP reservoir storage would have been 880,000 acre-feet lower last 
summer, further depleting cold water pool and creating dangerously low 
storage levels.
    Finally, while we understand that today's hearing is focused on the 
operational issues playing out this summer, I want to reiterate what we 
have said before about the Department's commitment to working with the 
state of California on the long-term goals of improving California's 
water supply reliability, and protecting and restoring the Bay-Delta 
environment. I hope that the many jointly funded projects our agencies 
pursue each year with the water user and environmental communities in 
California are evidence of that ongoing partnership. At the 
operational, financial, and policy levels, we are committed to helping 
California succeed in all years, not just in times of drought, flood or 
environmental crisis.
    The Obama administration remains committed to collaborating with 
the state of California and other stakeholders throughout California 
through the National Drought Resilience Partnership (NDRP) that 
President Obama recently established. As our climate changes, 
resilience to long-term drought, especially in California, is a 
critical issue every level of government needs to put as a priority. We 
look forward to working together with California on this as well.
    In closing, we would like to thank the subcommittee for its 
attention to this issue. These past several years have been incredibly 
challenging and we are proud of the collaboration and creativity that 
all the stakeholders have shown in finding ways to manage this 
complicated and important system.
    That concludes my statement. I would be pleased to answer questions 
at the appropriate time.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Murillo.
    I now recognize the Ranking Member for an introduction.
    Mr. Huffman. Thanks, Mr. Chairman.
    It is an honor for me to welcome and to introduce Bob 
Borck, who is a commercial fisherman in Eureka, California. 
Right now, our commercial fishermen, their families, and the 
communities that they are a part of are hanging by a thread. 
They have had a failed salmon season last year. We had an 
unprecedented mostly closure of the very important Dungeness 
crab fishery because of an algae bloom, and some boats are 
being sold and marinas are struggling.
    Mr. Borck is here to remind us that on the fisheries side 
of this equation there are also real people, real communities, 
Ford dealerships, churches, boat dealers, and Rotary clubs. 
There is a human element to that side of this system as well, 
and I welcome Mr. Borck here to tell us a bit about it.

   STATEMENT OF BOB BORCK, SKIPPER, FISHING VESSEL BELLE J II

    Mr. Borck. Good morning, members of the committee. Thank 
you so much for allowing me to be here today. My name is Bob 
Borck. I am owner-operator of a fishing vessel called the Belle 
J II, moored in Eureka, California.
    Eureka happens to be basically the middle of salmon coast 
from Washington down into Santa Cruz. We are dead set in the 
middle of it, and we are a port that may never ever have 
another regular salmon season again, for other reasons than 
Central Valley water, but, again, we are a port that will never 
fish out of our own town again for a full season.
    The U.S. salmon troll fleet is in trouble. There is no 
other way to put it. You have the Sacramento-San Joaquin fish. 
They are the bulk of what we fish on here in California. They 
are also a huge component of what gets caught in Oregon. They 
are caught off Washington. There have been net pen fish that 
were raised at, I believe it was Half Moon Bay, that were put 
in the ocean to increase our ability to catch. They are caught 
as far north as Alaska. You look at the Columbia River, they 
are the mainstay of Washington and Alaska troll salmon.
    The problem is freshwater in inland watersheds. If you 
don't have enough freshwater for spawners to go up and you 
don't have enough freshwater for smolts to survive to get out, 
you lose your fishery. That is what we have had with the 
drought.
    Assuming that this drought ends and we get all happy and 
there is lots of water again, it will be 3 years before the 
troll fleet sees a successful season. You have to have plenty 
of water to flush the smolts out of the river system and avoid 
predation. It takes water.
    On the coast, you have at least 30,000 jobs, well over a 
billion dollars in economic benefit that happens. You have 
2,000 commercial permit holders up and down the coast in the 
different states. Most of those boats have crews. There are all 
the support businesses on land, from Englund Marine, where I 
buy rope and buoys and all the parts and pieces that it takes 
to keep the boat going, to when I am stuck in Coos Bay and the 
wind is blowing, I am eating in restaurants and staying in 
hotels. Water is the issue.
    Last year, I ended up spending the end of July and most of 
August in Oregon. I had four trips in a row with one or two 
fish per trip. I did not cover the expenses of the ice, let 
alone the cost of the fuel, let alone being away from home for 
6 straight weeks. This year, Jeff French, fishing out of Half 
Moon Bay, had five fish in four trips. He too did not make his 
expenses. The Alaska troll king fishery that started July 1 
lasted a grand total of 5 days. Their allocation was mopped up 
in 5 days.
    Heather Sears, who has a boat out of Southern California, 
she leased a Washington permit. I think she told me she spent 
$8,000 leasing the permit. She figures she is not even going to 
put a hook in the water in Washington because their allocation 
for fish was so small, it wasn't even worth trying. She drove 
right past there and went to Alaska and had her 5 days.
    There is an incredible cost to doing business here. I have 
lost $150,000 in the last 7 years trying to buy in and get a 
commercial fishing operation off the ground. Part of it is bad 
timing because of the drought, because we don't have water, 
because we don't have adequate salmon seasons.
    People are hurting. Trucks are being repossessed. People 
are losing homes. Why? Because we don't have an adequate way to 
go take our boats and do what used to be done 30, 40, 50 years 
ago with ease. And a lot of it has to do with the fact that we 
don't have enough salmon, and we don't have enough salmon 
because we don't have enough water.
    Thank you very much.
    [The prepared statement of Mr. Borck follows:]
Prepared Statement of Bob Borck, Eureka, California Commercial Salmon, 
                      Crab and Black Cod Fisherman
    Good morning Mr. Chairman and members of the committee. I'm Bob 
Borck, skipper of the fishing vessel Belle J II. I fish salmon, crab 
and black cod commercially out of Eureka in Northern California. I've 
come here today so you can hear from the coast.
    Our salmon fishery is in trouble and let me start by reminding you 
all that salmon spend part of their lives in California's rivers and 
streams, where they're born and die, and part of their lives in the 
ocean. I'm here to report to you that the ocean is doing its part for 
salmon. The problems confronting California salmon are all caused by 
man-made changes to California's rivers, streams, and Bay Delta. 
Biggest among these is lack of river flows to the sea in the spring 
which are needed to deliver baby salmon to the ocean.
    We rely on Central Valley fall run king salmon which are fished 
from Santa Barbara to Washington. These fish come from the Sacramento 
River, the source of much of the water at issue today. We are blessed 
to have these fish and so are our consumers, who snap them up as soon 
as we bring them to port.
    These fish are the cornerstone of 23,000 jobs in California and 
11,000 in Oregon in a ``normal'' non-drought year. The industry serving 
both sport and commercial salmon generates about $1.4 billion in 
economic activity by the time you add in all the multipliers and about 
half that much again in jobs and dollars in Oregon where as much as 60 
percent of their ocean caught salmon originate in California's Central 
Valley.\1\
---------------------------------------------------------------------------
    \1\ http: / / asafishing.org / newsroom / news-releases / economic-
data-supports-efforts-to-recover-californias-salmon-fisheries/.
---------------------------------------------------------------------------
    But we haven't had a really good salmon season since 2013. I think 
it's informative to consider what gave us a good season in that year 
since it highlights what's hurting us now. The good 2013 season was 
fueled by two things:

  1.  strong new salmon protections coming out of the Endangered 
            Species Act's 2009 salmon biological opinion, and

  2.  a wet winter and spring in 2010/11.

    The 2009 ESA protections gave us a break from the crushing 
diversion of salmon water from the Bay Delta we experienced prior to 
2009. It finally gave baby salmon a little water to make it to the 
ocean. Spring runoff from the Central Valley functions like a conveyor 
belt that carries baby salmon downstream from where they were born and 
out to the ocean. They are poor swimmers and need strong spring river 
flows to the ocean to survive. When this water is diverted in the 
Delta, the conveyor belt carrying these baby salmon is cut and they 
die.
    The massive volumes of water diverted from the Bay Delta prior to 
2009 coincided with the first ever total shut down of ocean salmon 
fishing in California in 2008 and 2009.\2\ Salmon born in years that 
saw all time high water diversions from the Bay Delta basically failed 
to survive and return as adults 2 years later.
---------------------------------------------------------------------------
    \2\ http://www.dailydemocrat.com/general-news/20090119/weak-
oversight-brought-us-to-depleted-delta.
---------------------------------------------------------------------------
    The 2008 and 2009 shutdown was a desperate time for the salmon 
industry. We had to resort to Federal disaster relief to get through 
the closure, which is no way to run a business. We're not looking for a 
handout. We want a fishery.
    This year, we're staring down some of the slimmest fishing 
opportunity since the 2008-09 closure because of low salmon production 
in California's rivers, caused by drought and water diversions.
    Low forecasts salmon abundance and problems with the Bureau of 
Reclamation's management of cold water at Shasta dam for the last 2 
years forced the Pacific Fishery Management Council to severely 
restrict our time on the ocean this year. In the southern half of 
California, those fleets only got 2 months to fish in what used to be 
the April-October salmon season. Right now we're shut down, statewide, 
for the entire month of July, which is usually one of our most 
productive times to fish.
    Today, as I sit here, I and all virtually all California and Oregon 
salmon/crab fishermen are reeling from brutal back to back to back 
fishing seasons. 2015's salmon harvest was significantly lower than 
projected. We had to delay the 2015-16 Dungeness crab season for 
concerns over domoic acid. The delay cost us our best markets and 
weather windows to fish.
    When fishing was on, it was poor, as expected. Jeff French, a 
fisherman in Morro Bay, California, landed only five salmon over four 
fishing trips during the 2-month span this year. His salmon season is 
over. He'll be forced to fall back on rock crab, a much less lucrative 
fishery, until the Dungeness crab season starts back up in September.
    And it's not just the southern part that's suffered poor fishing 
this year. Sarah Bates, a San Francisco fisherwoman recently returned 
from a 3-day trip with only eight salmon. This is not normal, and not 
for lack of effort.
    Baby salmon, at a year of age, make it to sea in large numbers 
riding that heavy rain runoff. In addition to giving them a ride, the 
runoff also gives them camouflage in muddy water turbidity. This 
effectively ``cloaks'' the baby salmon, making them invisible to 
predatory fish that would eat them. I know many of you believe predator 
fish are the main cause of salmon decline but I'm here to tell you it's 
the lack of camouflage in the form of muddy runoff that makes baby 
salmon vulnerable to predators in the rivers and Delta.
    So contrary to what we've seen reported from some that know nothing 
about salmon or the ecological function of the Bay Delta, water flowing 
to the sea is not wasted! The most obvious evidence of this is the good 
fishing seasons we always get 2 years after heavy rains. The heavy rain 
runoff mimics pre-dam natural runoff patterns that salmon evolved to 
thrive in.
    There's a good example of the value of spring flows to salmon in 
the Columbia River basin. After years of court battles, like those we 
have here in California, a Federal judge in 2005 ordered reservoir 
managers up there to release water to flush baby salmon in the spring.
    The results have been dramatic, with probably the greatest recovery 
of West Coast salmon in history. The last few years have seen modern 
record returns of salmon to the Columbia River which has provided a 
great economic boost to that region.
    I'd like to speak a little more on the make up of the salmon 
industry. Most of us fishermen make a living family wage in good years. 
We're not getting rich, but we can save a little and get ahead after 
really wet years when we always get a bump in salmon numbers. Lately, 
we've been getting poor and spending the last of our savings, in large 
part, due to depressed salmon numbers caused by lack of freshwater for 
those fish in the Central Valley.
    People flock to the coast to catch a salmon when fishing is good. 
They come from hundreds of miles and bring their wallets with them. 
Word of a hot salmon bite is akin to word of a gold strike 150 years 
ago. It gets people moving in the direction of the salmon.
    Our boats benefit from new equipment and updated maintenance after 
a good season. The opposite is also true. Maintenance is deferred and 
we're stuck with patched up gear after poor seasons and as you can 
imagine, this can lead to less than safe working conditions for us.
    Businesses that rely on both sport and commercial salmon include 
places like Englund Marine, a chain of stores supplying fishing and 
boating needs in California and Oregon. We've got one in Eureka and it 
does well when salmon are doing well.
    The salmon industry also fuels many West Coast machine shops, boat 
yards and boat dealerships, tackle and gear stores, seafood buyers, 
local hotels and restaurants, and ports and harbors. They all benefit 
when salmon fishermen are in town and they all suffer when salmon 
numbers are low.
    But we're already seeing a decline in our salmon industry, as 
critical fishing infrastructure like fuel and ice docks have begun to 
disappear from harbors in quintessential ports like Monterey and Santa 
Cruz.
    This industry is vitally important to rural California where most 
of our harbors exist. It's vital to the many thousands of families that 
rely on salmon for their livelihoods. It's vital to the cultural fabric 
of our coastal communities.
    I want to leave you with the understanding that Federal protections 
for salmon under the Endangered Species Act are the only reason we in 
California are still on the water fishing. They are the only reason we 
still have any salmon in California rivers. Without ESA salmon 
protections we lose all of our Central Valley wild salmon runs, and in 
all likelihood, the salmon industry. It's important to understand that 
although ESA salmon protections are geared to two of the four king 
salmon runs in the Central Valley, the other two, which we rely on, 
also greatly benefit from these ESA protections. This is why the West 
Coast salmon fleet supports the ESA.
    State and Federal fish agencies tell us we lost between 95 and 98 
percent of our Central Valley salmon during the last 2 drought years. 
The eggs didn't hatch because river water released from reservoirs was 
too warm. We don't manage the reservoirs, and we didn't cause that wipe 
out. But we're doing our part by limiting the number of fish we catch, 
to make sure that we have a fishery into the future. I ask that you do 
your part to make sure that California's water resources are allocated 
in a way that's equitable and protective of all of California's 
industries.
    We've got fishing families in Crescent City, Eureka, Fort Bragg, 
Bodega Bay, San Francisco Bay, throughout Monterey Bay and beyond whose 
futures are hanging in the balance. They've been practicing a 
sustainable lifestyle in harmony with our natural systems for decades 
and providing one of the most incredible foods known to man.
    We've got an incredible ocean off the most beautiful coast in the 
Nation that's short on a key resource needed not only by us humans, but 
also many other species that need salmon. I appeal to each of you to 
act for the long-term benefit of the great state we call home and that 
means leaving enough water in our salmon rivers for salmon to survive. 
Thank you.

                                 ______
                                 

    Dr. Fleming. Thank you.
    The Chair now recognizes Mr. Azhderian for 5 minutes.

  STATEMENT OF ARA AZHDERIAN, WATER POLICY ADMINISTRATOR, SAN 
              LUIS & DELTA-MENDOTA WATER AUTHORITY

    Mr. Azhderian. Good morning, Mr. Chair, Ranking Member 
Huffman, and members of the committee. It is an honor to be 
here with you today.
    If there is one thing that I would ask you to remember 
about today, it is that California is at yet another crossroads 
in how we manage endangered species and water supply. The 
decisions that will be made in the coming weeks and months will 
have impacts probably for years.
    The testimony you have heard from the Federal agencies and 
will hear from the Federal agencies is really aimed at 
assuaging the concerns about how we are managing both fish and 
water. What I found interesting in the testimony is not what 
they say so much, but rather what they don't say.
    There is nothing about how other stressors are being dealt 
with, there is nothing about the ill-conceived summer flow 
proposal that is more likely to hurt Delta smelt than to help 
them, and is in clear conflict with temperature management 
objectives for winter-run salmon. There is nothing about what 
happens to the millions of Californians that are dependent on 
the CVP water supply if things do not go as planned. There is 
nothing about the water supply impacts that are already 
beginning to accrue into 2017; rather, it is an expression of a 
false confidence about a status quo, insular, single-species, 
single-stressor approach that somehow will work this time.
    For a quarter of a century now, National Marine Fisheries 
Service and the Fish and Wildlife Service have been responsible 
for the protection and recovery of winter-run salmon and Delta 
smelt. The status of winter-run salmon is poor, not the worst 
we have seen, but poor. Delta smelt numbers, of course, are at 
historic lows. And throughout this time at each crossroads, the 
decision has been to continue to manage our fisheries in the 
same manner, this despite broad recognition from the onset that 
comprehensive solutions and collaboration was the way to 
proceed.
    In the early 1990s, the environmental community, water 
users, and the state and Federal Government all recognized the 
need for collaboration and comprehensive solutions, and agreed 
when they signed the Bay Delta accord, to move forward in that 
fashion. Unfortunately, that did not occur. In the decades 
following, numerous independent science panels have warned us 
of sticking to this approach, of not researching the biological 
causal effects of these fisheries' declines. In 2009, the state 
of California reaffirmed the need for comprehensive solutions 
when it passed the Delta Reform Act. This is not new advice. It 
has just been ignored.
    So we have a choice. It is critical to remember we have a 
choice. This crossroad provides an opportunity to broaden 
participation in the process, to reassess our current failed 
approaches, to research causal effects, enlist stakeholder 
support, demand accountability about the results, and refine 
and redirect our actions or reject them based upon demonstrable 
benefits and evidence.
    In the end, changing demands is not about Ag. and municipal 
use. We are among the most efficient users of water in the 
world. It is about unbridled regulation. And water supply 
uncertainty is about the unceasing demand for more water for 
environmental use without accountability. After a quarter 
century, and fish populations, water supplies, and the people 
who care about both worse off than ever, it is time that we 
deserve better environmental protection.
    I thank you for the opportunity to speak here today and 
look forward to any questions you may have. Thank you.
    [The prepared statement of Mr. Azhderian follows:]
 Prepared Statement of Ara Azhderian, Water Policy Administrator, San 
                  Luis & Delta-Mendota Water Authority
                              introduction
    Mr. Chairman, Ranking Member Huffman and members of the 
subcommittee, my name is Ara Azhderian, Water Policy Administrator for 
the San Luis & Delta-Mendota Water Authority (Authority). Thank you for 
the opportunity to appear before you today to testify on the causes of 
uncertainty affecting the water supply of the eighth largest economy in 
the world, the state of California.
    The San Luis & Delta-Mendota Water Authority (Authority) is a Joint 
Powers Authority under California law that was formed in 1992. The 
Authority serves 29 member agencies, 27 of which hold contracts for 
water with the U.S. Department of the Interior Bureau of Reclamation's 
(Reclamation) Central Valley Project (CVP). Our members manage water to 
serve agricultural, municipal, and environmental purposes. Our service 
area is approximately 3,300 square miles and spans all or parts of 8 
counties: Contra Costa, Santa Clara, San Joaquin, Stanislaus, Merced, 
San Benito, Fresno, and Kings. Roughly, our northern border is the 
southern edge of the Sacramento-San Joaquin Rivers Delta (Delta), our 
eastern border is the San Joaquin River, our southern border is 
California State Highway 41, and our western border is the Santa Cruz 
Mountains. Our members provide water to 5 of the Nation's top 10 
agricultural producing counties, to the second largest contiguous 
wetlands in the United States after the Florida Everglades, and to 
approximately 2 million Californians living in communities ranging from 
small, rural, often disadvantaged towns like Avenal and Huron, to the 
affluent global center of technology, Silicon Valley. If you have eaten 
a cantaloupe, used a can of tomato sauce or jar of salsa, ``googled'' 
on an iPhone, or just appreciate the majesty of birds migrating the 
Pacific Flyway, the chances are good that you've been touched by CVP 
water.
                               background
    Since formation of the Authority, drought has been the center of 
our universe. In 1992, California was in the fifth year of a natural 
drought, a hydrologic situation not dissimilar from today. In the worst 
of it, CVP agricultural water service (Ag Service) contractors were 
allocated 25 percent of their contract supply. Concurrently with the 
natural drought, regulatory changes were happening in rapid succession, 
first with the listings of winter-run salmon and Delta smelt under the 
Federal Endangered Species Act, the reprioritization of CVP water 
supplies under the Central Valley Project Improvement Act, and new 
water quality standards under California's delegated Clean Water Act 
authority. The water supply reductions resultant of the natural drought 
made it difficult to comprehend what the water supply impacts of the 
regulatory drought would be once the rains returned. As the dust 
settled over the next few years, it became clear that the regulatory 
drought had reduced the CVP water supply for south of Delta Ag Service 
contractors by about 35 percent on average. Many small farms vanished, 
many acres were constantly fallowed, many jobs were lost, and several 
once vibrant agricultural communities became shells of their former 
selves.
    In response, farmers did what they do best, adapt. The new 
regulatory water supply gap would be expensive to close, so farmers 
started planting higher value crops. With the increased revenue, they 
began investing in state-of-the-art irrigation systems, reusing and 
recycling drain water, and purchasing water for transfer, a big portion 
of which came from Northern California. By the late 1990s, as some 
stability returned, efforts turned toward restoring the water supply 
lost to the regulatory drought. The center of this effort was known as 
CALFED, an enterprise aimed at improving both the environment and water 
supply. However, despite billions of dollars spent and millions of 
acre-feet dedicated to the cause, by the mid 2000s new, startling fish 
abundance declines were underway, affecting Delta smelt and winter-run 
salmon, among others. With respect to Delta smelt, the Interagency 
Ecological Program Pelagic Organism Decline Progress Report: 2007 
Synthesis of Results identified numerous possible causes for the 
decline, including contaminants, predation, and lack of food, and 
stated, ``Entrainment at the CVP and SWP pumps also seems to be an 
unlikely single cause of POD but may be important in some years for 
some species.'' Regarding salmon, both the National Marine Fisheries 
Service (NMFS) and Pacific Fishery Management Council concluded that 
the sudden decline was caused by poor ocean conditions. PFMC stated in 
their March 2009 report ``What caused the Sacramento River fall Chinook 
stock collapse? '' that ``The evidence pointed to ocean conditions as 
the proximate cause because conditions in freshwater were not unusual, 
and a measure of abundance at the entrance to the [Bay-Delta] estuary 
showed that, up until that point, these broods were at or near normal 
levels of abundance.'' Yet, despite numerous scientific reports 
identifying multiple causes driving the new fish declines, the U.S. 
Fish and Wildlife Service (FWS) and National Marine Fisheries Service 
(NMFS) chose to do what they have always done, implement single 
stressor, single species regulations, primarily on the CVP and 
California State Water Project (SWP) (collectively Projects), while 
doing little to address the myriad of other known stressors.
    In 2008 and 2009, the FWS and NMFS issued new biological opinions 
(BiOp), the primary focus of which is to curtail pumping. While the 
BiOps do call for other actions, like habitat restoration, no action 
has been as vigorously implemented as the pumping constraints. Like the 
regulations implemented in the early 1990s, these too were implemented 
during a natural drought period so the ``real world'' water supply 
costs have been difficult to determine. Water operations modeling 
suggests that the BiOps have cut CVP and SWP water supplies by about 
another 30 percentage points. For south of Delta Ag Service 
contractors, this translates to a long-term average water supply of 
about 35 percent of contract. The current BiOps have squeezed virtually 
all of the operational flexibility from the Projects, causing the 
damaging effects of the natural drought to amplify the chronic water 
supply shortages of the regulatory drought, with devastating effect 
throughout the CVP service area, but especially in the San Joaquin 
Valley. Over the last 4 years, CVP south of Delta Ag Service water 
supply allocations have been 20 percent, 0 percent, 0 percent, and 5 
percent. In 2014, for the first time in the history of the CVP, 
Reclamation had to draw CVP water from the east side of the San Joaquin 
Valley for delivery to the west side, and to borrow water from 
individual farmers and districts, because it could not meet its 
contractual and statutory obligations to provide water to prior water 
rights holders and managed wetlands from traditional sources of supply 
in the north. In addition, over 2 million acres of farmland received no 
CVP water whatsoever and CVP supplies to municipalities were 
approximately 30 percent of historical average, significantly lower 
than the minimum called for in Reclamation's Municipal & Industrial 
Shortage Policy. These disasters were repeated in 2015.
    Since imposition of the BiOps, Federal agencies have steadfastly 
claimed that the unprecedented water supply shortages that have 
followed have been the result of the natural drought, not a regulatory 
drought. As recently as February 24 before this very subcommittee, 
Reclamation's Mid-Pacific Region's Director David Murillo reiterated, 
``While some have argued the state's water supply cutbacks are entirely 
due to environmental regulations, it has been drought--the extreme 
declines in annual precipitation and snowpack in California since 
2012--far more than any other factor [emphasis added], that has 
constrained the ability of the state and Federal projects to deliver 
full allocations of water during these years.'' Clearly natural drought 
plays a role in water supply, this has always been the case and is a 
major reason why the Projects were built, but a review of the volume of 
water stored in Shasta Reservoir [Attachment 1] clearly demonstrates 
that it is how the water is used that affects water supply allocations, 
much more than how much there is of it. The red line represents 1977, 
the benchmark dry year, the blue line represents 1991, the fourth year 
of that 5-year drought cycle, the green line represents 2015, the 
fourth year of our most recent drought cycle, and the heavy blue line 
represents this year. The corresponding CVP south of Delta Ag Service 
water supply allocations for these 4 example years are 25 percent, 25 
percent, 0 percent, and 5 percent. And it is not just the volume of 
water in storage that has been affected, but too our ability to capture 
water at critical times. Attachment 2 illustrates all of the missed 
opportunities this year to pump water when it was abundant in the 
Delta. The color coded background indicates what regulation was 
generally causing the restriction over some period of time. The dashed, 
variable line indicates the volume of uncontrollable water flowing 
through the Delta and into the Pacific Ocean. The comparatively static, 
solid line indicates combined CVP and SWP pumping. The effect of the 
BiOps pumping restrictions are plain to see--the ability to pump water 
south is now essentially divorced from the volume of water available in 
the north. The result of this disconnect is illustrated in Attachment 
3. The blue bars compare the volume of water that flowed into the 
Pacific in 2015 and 2016. The red bars compare the volume of water 
pumped in the same time frame. Despite there being 350 percent more 
water flowing through the Delta this year, the Projects were allowed to 
only capture 50 percent more than last year. It is undeniable that 
regulation is the significant driver behind chronic water supply 
shortages; natural drought just exacerbates the already bad situation.
    By any measure, 2016 will be a historic year, and likely turning 
point, for the Projects. For 4 years now we, all of us, have been told 
that when the rains return to California, so will the water. But that 
has not happened. Looking forward, it seems unlikely that the decades-
long decline in Delta smelt and winter-run salmon populations will 
suddenly, dramatically, and sustainably reverse absent new management 
approaches. If that is so, what are the implications for California, 
the eighth largest economy in the world and producer of about 50 
percent of the Nation's fruits, nuts, and vegetables? What are the 
implications to the financial investment Congress and other have made 
in the CVP? And what are the implications to the cultural, socio-
economic, and environmental conditions of the people once encouraged to 
settle and develop communities in the Central Valley, a population 
roughly the size of the state of Colorado?
    We are at a critical juncture. Our agricultural and municipal water 
users have continually adapted to the ever-increasing regulatory 
demands, becoming among the most efficient users of water in the world. 
However, continued gains through conservation, reuse, and recycling are 
not limitless, are extremely costly, and in some cases economically 
infeasible. The myopic attention on flows over the past quarter century 
have contributed mightily to the terrible status of several species 
today. Regulators have too readily seized upon flows in part because it 
is an easy, tangible, ``feel good'' change to make. And while virtually 
every drop of water used for agricultural and municipal purposes must 
be accounted for, the fastest growing segment of water demand, 
environmental management, has no such requirement for accountability. 
Moreover, the prevalent single stressor, single species approach 
imposed by FWS and NMFS ignores the consistent and pervasive scientific 
advice that multiple stressors are work therefore comprehensive 
solutions are necessary if we are to be successful. As an example, 
habitat restoration has long been identified as an important part of 
the solution, but progress has been inexcusably slow given the decades 
listed fish populations have been under stress. Ultimately, better 
solutions will require better approaches, science, and decisionmaking 
processes to ensure that we are not the first generation of resource 
managers that leave both environmental and water supply conditions 
worse for the next generation. The time is now, the choice is ours and, 
for many of us, the choice is obvious.
         water supply uncertainty due to delta smelt management
Population
    Delta smelt population indices are at an all-time low, which is a 
natural cause for concern and the primary driver of fears regarding the 
potential for extinction. However, while the population indices do tell 
us about the general trend in Delta smelt abundance, they do not 
provide us an accurate estimate of actual population. There are several 
reasons for this. First, the monitoring methods used to measure Delta 
smelt numbers and distribution are inefficient. A boat can trawl the 
open water looking for Delta smelt and catch a few or none while feet 
away, individuals sampling the shore with nets can catch tens, even 
hundreds, at essentially the same location. Also, Delta smelt are known 
to reside in regions, such as Cache Slough and the Sacramento Ship 
Channel, that are not counted in the historical population indices or 
recent FWS population estimates. In other words, the numbers reflected 
by both are known to be artificially low. Further, these regions not 
only routinely harbor significant numbers of Delta smelt but, such as 
with Cache Slough, also some of the healthiest. While for years there 
has been broad agreement that the current monitoring practices are 
inefficient and in need of modernization, change has been inexcusably 
slow.
    Extinction concerns should be further moderated by two other 
considerations. First, work completed earlier this year by U.C. Davis 
used genetics based measures to assess the effective population size of 
Delta smelt. The findings are promising and demonstrate that the 
effective population size of Delta smelt as of the 2014 year class is 
above the threshold where fitness related genetic diversity is expected 
to be lost. The implication of the genetic diversity and the effective 
population size information is that a large number of Delta smelt 
remain in the San Francisco Estuary system. However, the current 
disparity between FWS Delta smelt abundance indices and the effective 
population size is a concern as it may indicate existing monitoring 
programs will have difficulty adequately representing Delta smelt 
abundance, distribution or habitat needs. Second, there are two Delta 
smelt conservation hatcheries, the U.C. Davis Fish Conservation and 
Culture Laboratory (FCCL) in Byron, California and the U.S. Fish and 
Wildlife Service's Livingston Stone National Fish Hatchery located at 
the base of Shasta Dam near Shasta Lake City, California. These 
facilities exist to raise Delta smelt as a back-up or ``refuge'' 
population to insure against extinction. These Delta smelt also 
represent an untapped resource, as they could be used to conduct field 
research to improve our very limited understanding of suitable Delta 
smelt habitat and/or as brood stock to assist in the recovery of the 
wild population. Unfortunately, current FWS policy prohibits use of 
these fish beyond the hatchery, so for the vast majority, they are 
simply reared to be discarded at the end of their 1-year life span. We 
should be able to do better with our multi-million dollar annual 
investment.
Incidental Take Level and 2016 Winter Operations
    Generally, an Incidental Take Level is the number of a listed 
species that a regulatory agency anticipates will be taken by the 
normal, permitted activity of an action agency. For 2016, the FWS 
calculated an ITL of 56 adult Delta smelt and 392 juveniles for the 
combined CVP and SWP pumping operations, which supplies water to 
roughly 2 out of 3 Californians. How the ITL is both calculated and 
managed raises significant concerns. First, the ITL is unreasonably 
low. This is in part due to its reliance on the artificially low 
abundance index numbers. But, it is also because the most recent 
formula developed and implemented by FWS this year excludes a 
significant portion of the historical take data largely related to 
average water-year types. Essentially, the center of the take bell 
curve was ignored. What remains are the extremes, either really dry 
years when pumping and turbidity are low anyway, or very wet years when 
OMR's reverse flow is low because of high San Joaquin River inflow. 
Under either condition, historical take is generally low. So, by only 
including outlying years with historically low take, the current ITL 
formula produces a number much lower than what would reasonably be 
expected under normal pumping operations. Whether this approach was an 
explicit policy choice, or a de facto one resulting from choices made 
by those who created the formula, is unclear. What is clear is that it 
is not a science issue, and, if left unresolved, will continue to 
artificially constrain California's water supply, potentially for years 
to come.
    The second, and perhaps more significant, concern with the ITL is 
its psychological effect. With the adult abundance index at an all-time 
low, and an all-time low ITL, the handful of biologists making day-to-
day operational decisions have begun viewing the ITL as a number to 
avoid rather than one to be expected, as demonstrated in Smelt Working 
Group notes stating that zero salvage should be considered a requisite 
to increased pumping. Under normal conditions, an ITL will be exceeded 
periodically and the process thereafter is to reconsult, which has 
happened with adult DS in the past. Under today's conditions, the fear 
of reconsultation is great, in part because the fear of extinction is 
overblown. When the Projects asked FWS what would happen this year if 
the ITL of 56 fish was exceeded, the answer was that OMR, and therefore 
pumping, would likely be constrained to the bare minimum of -1,250 cfs 
for the remainder of the adult spawning period, perhaps months. The 
apprehension that results prompts the CVP and SWP operators to take 
actions to not just minimize, but avoid, their otherwise lawful, 
permitted level of take. The resultant water supply cost due to lost 
pumping between January and March 2016, was approximately 820,000 acre-
feet (Attachment 4) with no demonstrable benefit to Delta smelt 
abundance. That is enough water to serve about 1.6 million households 
for a year, to farm approximately 270,000 acres of crops, and to 
produce billions dollars of economic activity. In the end, the 
resultant socio-economic harm is a policy choice, not a scientific 
question, and yet for the most part, the harmful results stem from the 
unchecked opinions of a few state and Federal biologists.
    If the purpose of a BiOp is to avoid jeopardy and adverse 
modification of critical habitat, what information has the FWS 
developed to demonstrate the operational constraints imposed upon CVP 
and SWP operations over the last 9 years are achieving those goals? 
Regrettably, there is none and, rather than that fact leading to a 
wholesale re-evaluation of how and what is being done to protect and 
recover Delta smelt, the FWS is proposing a more of the same strategy. 
The mantra today has become every fish matters but, only if they may be 
affected by the Projects. In the meantime, the FWS continues to do 
little to address the multitude of other stressors that independent 
scientists have been telling us for decades, ignore at your own peril. 
Delta smelt were listed nearly 25 years ago, what has FWS done to 
address other stressors? What other BiOps, ITLs, permits, and 
restrictions has FWS imposed on activities beyond the Projects? What 
explains the willingness of FWS to take, in a single day, at a single 
location, the number of adult Delta smelt equivalent to the total 
allowed the Projects for the entire year? The response would likely be 
concern about entrainment in the south Delta in general, not just 
salvage. But, what evidence demonstrated this was occurring? The 
January through March Spring Kodiak Trawl data clearly demonstrates 
that the vast proportion of Delta smelt were along the Sacramento River 
between Suisun Marsh and the Sacramento Ship Channel (Attachment 4), 
far to the north, consistent with historical distribution. The Smelt 
Working Group's biologists' response is that lack of Delta smelt in the 
monitoring data is not evidence of their absence, and that may be, but 
it certainly says something about the relative proportion at risk and 
the disproportionate regulatory response to their protection.
    Ultimately, what this years' experience demonstrates is how far we 
have veered from the use of best available science and the blurred 
distinction between science and policy choices. Multi-billion dollar 
decisions impacting millions of lives and numerous public policy 
initiatives are being made in isolation by a handful of individuals 
based upon conjecture and belief, not science. At what point does 
unbridled discretion become an abuse of authority? Or, is this the new 
normal for California and all that depend upon the CVP?
Summer Flow Enhancement
    In what can only be described as a Hail Mary, the FWS is proposing 
it's most desperate action yet, increasing summer outflow in the hope 
it may produce more Delta smelt. Unfortunately, the proposal as 
described in various meetings--it is not yet documented--does not 
appear to be supported by the weight of scientific evidence. Our 
current understanding is that the FWS is pressing Reclamation to 
acquire between 80,000 and 115,000 acre-feet of water to augment Delta 
outflow in August and September of 2016, and between 200,000 and 
300,000 acre-feet of additional outflow from July through September in 
2017 and 2018. The intent is to move ``X2'', the location in the Delta 
where salinity is at two parts per thousand, further west in the hope 
that this new location will somehow benefit the population. The cost to 
move X2 is significant, both in terms of water and money. Recently, 
Reclamation identified the activities from which it would take 
$10,880,000 from existing projects, including from the Battle Creek 
Salmon and Steelhead Restoration Project, one of the largest cold-water 
anadromous fish restoration efforts in North America, and refuge water 
supplies, which are not only an already unmet statutory obligation, but 
a vital resource in the protection of migratory birds protected under 
Migratory Bird Treaty Act of 1918 as well as management of numerous 
other endangered species. Furthermore, while the FWS has been clear 
that this proposed action is outside the bounds of the BiOp, and 
therefore should be a non-reimbursable cost to the CVP, Reclamation has 
yet to insure that the costs that may be incurred will not be rebilled 
to CVP contractors.
    In putting forth its proposal, FWS has not only ignored the best 
available science but also the Administration's commitment to 
transparency, participation, and collaboration. The published 
literature indicates that Delta Smelt abundance is unrelated to summer 
outflow, the location of X2, or the volume of low salinity habitat. It 
also suggests that Delta smelt would not move from one location to 
another because of a change in the location of X2. And if they did, 
published field studies demonstrate they would likely leave superior 
habitat like that in the Cache Slough region of the Sacramento River, 
where most of them are currently located, for some of the poorest 
quality habitat, which is in Suisun Bay. In other words, the proposed 
flow augmentation could actually further harm Delta smelt, though none 
of the potential adverse effects of this discretionary action have been 
analyzed. It is just assumed the benefits will outweigh the 
consequences. Rather than risking millions of dollars on this ill-
conceived idea, the biological benefit of which will likely never be 
measured, we should invest in research and actions that could yield 
tangible results, such as understanding the biological mechanisms 
driving Delta smelt declines.
         water supply uncertainty due to winter-run management
    Nine months into the water year, CVP and SWP contractors finally 
have a salmon temperature management plan. However, while the plan 
allows for operations much closer to those originally approved by NMFS 
on March 31, 2016, it also contains a number of conditions and off-
ramps that if triggered would rapidly result in decreased releases from 
Shasta Reservoir and potentially severe water supply disruptions 
throughout the Central Valley. In early May, Reclamation and NMFS 
learned that Shasta Reservoir was warmer than expected, thus NMFS 
informed Reclamation that the March 31 concurrence was no longer 
supportable and the effort to formulate a new plan was initiated. Over 
the course of nearly 2 months, NMFS, the California Department of Fish 
and Wildlife, the State Water Resource Control Board, the California 
Department of Water Resources, and Reclamation worked diligently, and 
insularly, to produce another acceptable plan, which was finally 
approved on June 28, 2016. While agreement was welcomed, the process 
for developing the plan and disproportionate attention given to a 
single biological stressor is cause for great worry going forward.
    Generally, the salmon life cycle has a number of important stages: 
the egg-to-fry stage, when they are most sensitive to temperature, the 
juvenile stage when they will attempt to migrate down the Sacramento 
River to rear in the Delta and ocean, the adult stage when they mature 
in the ocean for about 2\1/2\ years, and finally the adult migration 
back home to spawn so that the cycle can begin all over again. At each 
step, there are a number of manageable factors that affect the survival 
of salmon. The Herculean temperature management planning effort focused 
thousands of staff hours, nearly a hundred model scenarios, and untold 
policy conversations to wrestle a decision about whether another nearly 
400,000 acre-feet of water should be taken from water users to improve 
the predicted temperature related survival of winter-run salmon from 94 
percent to 95 percent. All the while, relatively little was, or is, 
being done to address the estimated 75 percent predation related 
mortality that will occur as the juvenile salmon migrate downstream to 
the sea, or the near 20 percent harvest related mortality that will 
occur as a result of commercial and recreational fishing in the ocean. 
For the few that successfully survive the journey, other factors will 
affect their reproductive success, such as the quality and availability 
of suitable spawning gravel and habitat conditions in the river. 
Typically, only about 0.05 percent of the eggs laid in the river will 
survive to maturity at age 3 and successfully reproduce the next 
generation to complete their lifecycle. For 2016, the work done to 
develop the water temperature management plan predicts that 
temperature-related mortality for winter-run salmon to be 5 to 6 
percent, which means over 94 percent of the expected mortality will be 
resulting from other causes.
    Is temperature related survival a vital step in the salmon 
lifecycle? Of course, but it is not the only vital step; successful 
temperature management does not always translate into a high number of 
mature adults returning to spawn. The reality is, if we get survival at 
one life stage perfect, and ignore other sources of mortality, we fail. 
The fact that winter-run salmon stocks, along with other Central Valley 
salmon, have continued to decline so significantly over the past 
several decades is a clear and strong indicator that the current 
management approach of focusing disparately on only a few select 
stressors has not proven to be effective. So, while we should be 
concerned about the poor temperature related survival of the past 2 
years, we should not be surprised by the overall low abundance of 
winter-run salmon. Until we implement a comprehensive approach to their 
care, winter-run, along with other salmon, will continue to suffer.
    While efforts are underway to establish more collaborative forums 
to assess the state of knowledge regarding Central Valley salmonids and 
to provide a basis for designing and implementing improved management 
actions, the pace is too slow and the level of Federal effort 
disproportionate to the problem. Discussions among public water 
agencies, environmental and fisheries organizations, and state and 
Federal agencies demonstrate a willingness and ability to collaborate 
on comprehensive solutions. These discussions have identified a diverse 
set of potential management actions, such as spawning gravel 
augmentation and habitat improvements, reducing predation, improving 
hatchery management, implementing a mark-select harvest program to 
reduce commercial and recreational fishing impacts to wild and listed 
salmon, improved methods for transporting and releasing salmon, among 
others. In 2014 and 2015, CVP contractors worked with Reclamation to 
make available a quarter billion dollars of water to augment 
temperature management potential. But to fully realize the potential of 
Federal, state, and local government and private partnerships, NMFS 
must dedicate the resources necessary to help develop, and ultimately 
permit, these multi-stressor solutions.
                            recommendations
    We are upon another historic turning point in the management of 
listed species and the Projects. The choices made over the coming 
months will impact California, the Nation, and beyond, probably for 
decades. On one hand, we can continue down the path established by the 
FWS and NMFS over a quarter century ago: single species, single 
stressor management, insular science and process void of 
experimentation, balance, or accountability, and failing to protect, 
much less recover, the species. Or, we can embark on a new path, one 
that is collaborative, transparent, comprehensive and far more likely 
to produce beneficial results for listed species and the people who 
both care for their protection yet depend upon the Projects' for an 
affordable, reliable, and sufficient water supply.
    We understand that Interior and the California Department of Water 
Resources are currently working on a framework for furthering an array 
of short-term actions aimed at helping smelt. This is helpful as it may 
bring some order to this very chaotic regulatory and operating 
environment. To inform this process and others needing guidance and 
oversight, we offer the following recommendations. It is not the aim of 
the San Luis & Delta-Mendota Water Authority to eliminate or undermine 
environmental protection. On the contrary, it is our interest to 
develop, implement, and support effective environmental protection.
Need for Transparency
    On his first day in office, President Obama signed the Memorandum 
on Transparency and Open Government to express his administration's 
commitment toward improving government openness, efficiency, and 
effectiveness through transparency, participation, and collaboration. 
Unfortunately, little of the potential of this commitment has been 
realized by the FWS and NMFS. The examples of concern above were born 
in insular processes followed by choice, not necessity. If public water 
agencies and the people we serve are to suffer the consequences of the 
regulations imposed upon them, they also deserve to know throughout the 
formulation process the need, scientific basis, policy trade-offs, and 
anticipated outcomes of the proposed action. Sadly, this level of 
transparency, and the accountability that should accompany it, is not 
present today. This should change.
Need for Collaboration
    Despite their best efforts, the Federal and state regulatory and 
resource agencies have not been able to adequately protect listed 
species nor provide sufficient water supply to millions of 
Californians. This reality is due to a number of factors: limited 
budgets, lack of resources, legal authorities, and capabilities, among 
them. In order to ensure better outcomes going forward, Federal and 
state agencies should partner with public water agencies, and other 
entities, committed to and capable of expanding efforts to address the 
myriad of problems we face today. Public water agencies provide a 
unique, largely untapped, resource to help address the environmental 
and operational concerns affecting management of listed species and the 
Projects. Public water agencies hold a distinct position in 
California's water resource management chain, serving as intermediary 
between the Federal and state agencies and as fiduciaries to the tax 
and rate payers that both fund and rely upon our collective services. 
Public water agencies also have specialized operational knowledge, 
modeling and scientific capabilities, a unique concern in the policies, 
practices, and outcomes of Federal and state government actions, and 
extraordinary expertise and resources to bring to bear.
    An example of an ongoing scientific and management oriented 
collaborative effort is the Collaborative Science and Adaptive 
Management Program, or CSAMP. It includes representatives from Federal 
and state fish and wildlife and water supply agencies, public water 
agencies, and environmental organizations. While this forum was born 
from the litigation over the 2008 and 2009 FWS and NMFS biological 
opinions and was created to help address the most controversial science 
questions related to the BiOps in an inclusive and collaborative 
manner, it continues to work voluntarily today with the aim of 
minimizing divergent views and potential conflicts associated with the 
science used to inform future opinions. Over the last 3 years, the 
effort has identified key knowledge gaps and disagreements in our 
understanding of Central Valley salmonids and provided recommendations 
to resolve them, and has begun a series of analyses examining questions 
related to the impact of Project operations from entrainment and fall 
outflow on Delta smelt. While initial progress was slow, trust and a 
strong collegial work environment has emerged. Unfortunately, both 
recent processes to develop the FWS summer flow proposal and the NMFS 
re-evaluation of the salmon temperature management plan chose to ignore 
the CSAMP collaborative approach; rather, employing the traditional 
insular method. Much of the controversy that exists today regarding 
these two proposals could have been minimized, and perhaps avoided, if 
a collaborative approach like CSAMP had been utilized from the outset. 
If the better outcomes we are all seeking are to be achieved, a better 
process to develop the science and management actions and evaluate 
their performance is necessary.
    Related to collaboration is the attendant need to implement true 
adaptive management programs. While the BiOps talk about adaptive 
management, it is not effective adaptive management in that it provides 
no formal, structured path for ongoing stakeholder participation in the 
questioning and testing of hypotheses to refine or reject management 
actions based upon the scientific evidence. What is in place current 
has basically been used by the FWS and NMFS to impose stricter 
regulatory criteria or thresholds unilaterally, without any monitoring 
or assessment of the actions biological efficacy. As with investing, we 
should not adopt a set it and forget it approach to environmental 
management.
Need to Understand Cause and Effect
    For decades now, numerous independent scientists and peer review 
panels have cautioned against too much reliance upon statistical 
correlations and have recommended we focus instead on researching cause 
and effect relationships. Correlations can be misleading because they 
do not always reflect the actual cause-and-effect relationships or the 
underlying mechanisms. Absent causal information, it is difficult to 
predict how changes in an environmental variable can effect changes in 
the population of a species. By better understanding the biological 
mechanisms at work, we will develop management actions that are both 
more efficient and effective. Yet, despite overwhelming agreement to 
the contrary, the FWS yet again proposes a management action based upon 
a very weak statistical relationship. The current FWS proposal to 
augment summer Delta outflow hinges on the idea that Delta smelt 
abundance is somehow linked to the location of X2 (the location in the 
Delta where salinity is at 2 ppt) in the western Delta. X2 is the 
poster child of the cause and effect warning.
    From its very onset in 1996, the ``so-called `fish-X2' 
relationships'', as it used to be referred to, was recognized as being 
a ``rather crude management tool'' by the Interagency Ecological 
Program, which stated, ``More precise influence on these species in 
terms of quantity or timing of outflow would be desirable for efficient 
management. In addition, the potential influence of alternative or 
complementary management actions is difficult to determine from these 
[statistical] relationships.'' The U.S. Geological Survey offered 
similar caution observing, ``Significant scientific uncertainty 
remains, however, about the specific linkages between salinity [i.e. 
X2] and fish species abundance and about how the aquatic ecosystem 
within the Delta and Suisun Bay might respond to changes in water flow 
management. Information is also needed about the relationships between 
river flow and . . . the effects of contaminants both in the water, and 
associated with suspended and bottom sediments [i.e. causal 
mechanisms].'' In 2006, an independent science review panel report 
examining the then occurring Pelagic Organism Decline remarked, ``More 
generally, in using historical data to infer the effect of an 
environmental variable on a biological population, it is important to 
go beyond simply attempting to establish a correlation between the 
environmental variable and abundance. Instead, inference should be 
based on an understanding of the direct effect of the environmental 
variable on population dynamics (e.g., on one or more vital rates) and 
how this direct effect would be reflected in abundance.'' And again, 
just months ago speaking before the State Water Resources Control 
Board, Lead Scientist of the Delta Science Program, Dr. Cliff Dahm 
stated when summarizing key take home messages from the ``Flows and 
Fishes in the Sacramento-San Joaquin Delta'' report, ``The first one is 
that moving forward, we really need to focus more on cause and effect 
relationships, not just correlations, because correlations can 
sometimes be spurious.''
    For more than 20 years, scientists working on Bay-Delta fishery 
issues have overly relied upon statistical correlations to establish 
environmental management regulations, and after 20 years, billions of 
dollars spent, millions of acre-feet dedicated, and untold socio-
economic disruption, the species we have sacrificed so much for are in 
worse shape than ever. We cannot roll back the clock and recover 20 
years of lost research opportunity, but we also do not need to spend 
another 20 years following the same failed path. Rather than spend the 
tens of millions of dollars necessary to purchase water for the FWS 
summer X2 outflow action, the effects of which we will likely never be 
able to determine, we should invest in research that will bring about 
tangible results, actionable information, and much needed efficacy 
toward advancing species management.
Need to Experiment
    Many of the regulations steadfastly in place today began as simply 
hypotheses--just ideas really, many without much scientific foundation 
or certainty. As originally written by scientists, these hypotheses 
usually contain copious caveats with words like ``may'' and ``should,'' 
error bands, confidence intervals, and recommended actions to test the 
hypothesis so that it may be refined or rejected based upon the 
empirical information. This process is generally referred to as the 
``scientific method'' and it has served us well for hundreds, if not 
thousands of years. Enter the regulators. Well intended as they may be, 
their job is to build boxes. Boxes do not have windows or doors; the 
walls are rigid and boundaries certain. Into these boxes regulators 
place the hypotheses, but since the hypotheses are flexible by 
definition, they must be changed, specific thresholds selected, 
appropriate caveats replaced with words like ``will'' and ``shall,'' 
and the scientific method as an ongoing process is supplanted by the 
process of regulatory policy choices. If the policy choices are 
controversial, regulators often defend them by presenting false choices 
and certainty. For example, under the FWS BiOp we are told that the 
Projects' pumping operations jeopardize Delta smelt, therefore 
restrictions on OMR must be established and Projects' pumping cannot 
exceed a specified rate. There is no evidence that entrainment of Delta 
smelt by the Projects has a population level effect. Notwithstanding, 
we are told that minimizing entrainment by imposing the OMR restriction 
is the only way to avoid jeopardy, the false choice, and that -5,000 
cfs OMR is an absolute threshold, the false certainty. Cementing the 
outcome, ongoing monitoring of the effectiveness of the policy choices 
and/or an adaptive management process for implementing and testing 
alternative management actions is rarely a part of the regulatory 
requirement. Then, if after years of implementation the chosen actions 
fail to produce discernable results, the false certainty present at 
promulgation is replaced by equivocation about the complexity of the 
system and challenges of demonstrating biological benefit. Meanwhile, 
the resultant sacrifices by water users continue unabated. Such is the 
history of the CVP and SWP biological opinions.
    If we are to have effective environmental protections and balance 
various policy objectives, we must be able to test and critically 
evaluate the performance of the regulations currently in place. As an 
example, restrictions on the OMR net reverse flow have been in effect 
for 9 years. This regulation has effectively divorced the water supply 
for two-thirds of Californians residing south of the Delta from their 
water sources in the northern Sierras. Practically, the OMR restriction 
limits CVP and SWP pumping to about one-third of the Projects' physical 
capacity, and to about 40 percent of what would be allowed under the 
state's Water Quality Control Plan. As a result, the Projects have 
pumped less water throughout this 9-year period than in any other 
equivalent time frame in Projects' history. Yet, despite the 
significant cuts to pumping, Delta smelt and winter-run salmon have 
continued to decline, raising questions as to the effectiveness of the 
OMR regulation. In addition, the analyses that supports the hypothesis 
that increasing negative OMR can result in increased fish salvage and 
reduced survival also demonstrate that high negative OMR can result in 
little and even no salvage. So, apparently other factors are at work. 
However, when public water agencies have requested testing pumping 
rates higher than allowed under the BiOps, the FWS and NMFS have 
disapproved. Essentially, the rationale is that an experiment to test 
the efficacy of operational limits set under the BiOps is not allowable 
because it would result in operations that exceed the limits set by the 
BiOps. Under this logic, we can never change the existing standard 
because we can never test a greater alternative management threshold.
    Another example is a calendar restriction on pumping based upon a 
proportion of San Joaquin River inflows (Inflow:Export ratio) in the 
April and May time frame under the NMFS BiOp. Essentially, in the BiOp 
NMFS states that what is needed to improve outmigration for listed 
steelhead is greater San Joaquin River flow, however, since they were 
unable to achieve that via the BiOp, they chose to implement a pumping 
restriction instead. In recent years there have been experimental 
survival studies conducted in the San Joaquin River and Delta that have 
not detected a relationship between exports and survival of juvenile 
steelhead. Studies conducted with salmon have produced similar results. 
Unfortunately, although the available steelhead survival studies had 
variable pumping rates, no steelhead survival studies have tested 
export effects outside the boundaries of the NMFS BiOp, so they do not 
tell us if a greater pumping limit would also be appropriate. In order 
to truly assess the efficacy of this regulation, and others, in order 
to improve pumping potential, experimentation over a wide range of 
conditions is necessary; otherwise, we can be assured that when future 
storms come, we will not be able to capture that water either.
Need for Comprehensive Solutions
    The desperation behind so many of today's regulatory proposals stem 
from the natural concern regarding the current status of Delta smelt 
and winter-run salmon. But too often, we are asking the wrong 
questions. How are the projects causing the problem, to which we have 
invested millions, as opposed to what is the problem, which is a very 
different, far more important questing that we have invested little. If 
we are to extricate ourselves from the species abundance, water supply 
death spiral we are in, we must finally begin to develop and implement 
comprehensive and coherent approaches that begin to address the 
multiple stressors we know are at work. Clearly, the current management 
approaches are not working but we have an opportunity before us to 
embrace a more diverse set of management actions over a larger spatial 
scale. We have the technical ability, but do we have the will?
Need to Address Needs in the Near Term
    For about a decade now, the Projects and regulatory agencies have 
been generally focused on two areas, immediate needs, as in today's 
fire drill, or long-term planning, such as storage or conveyance 
projects, like California Water Fix, that may go into operation a 
decade or more from now. What has been left out is everything in 
between. As examples, the habitat restoration called for in the BiOps, 
if implemented with the same zeal as water supply cuts, could have 
already been providing us important information, and potentially more 
fish, today. Hatchery improvements and a mark-select fishery could 
yield the fish industry improved harvest in a few short years. Predator 
hot spot removal could begin at any time and provide immediate relief 
from a significant form of fish mortality. It is not a lack of good 
ideas standing in our way; rather, it is a lack of will, resources, and 
leadership. We know what to do, we just have to go and do it.
                               conclusion
    In the end, ``Changing Demands and Water Supply Uncertainty in 
California'' is less about how agriculture and municipalities are using 
water, we have been doing more with less for decades. Rather, it is 
about the huge increase in environmental water demand over the last 
quarter century due to unbridled regulation. But, unlike agricultural 
and municipal usage which must account for the use and ensure the 
benefit of each drop, environmental usage undergoes no such scrutiny. 
On the contrary, its benefit is simply assumed. Looking forward, it is 
incumbent upon us as servants of the public to question the efficacy of 
the water, money, and human sacrifice demanded for species management. 
Clearly some of what we are doing today is wholly ineffective, and yet 
it continues. We must reassess our approaches, broaden participation, 
enlist stakeholder support, and demand accountability in decisionmaking 
if we are to achieve better results. I appreciate the opportunity to 
testify before you today and would be happy to answer any questions. 
Thank you.

                              ATTACHMENT 1
                              
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 

    Dr. Fleming. OK. Thank you.
    Thank you for your testimonies. We will now go to 
questioning. I yield myself 5 minutes for questioning.
    This question is to Mr. Sutton and Mr. Azhderian. The state 
of Louisiana depends on healthy fisheries for part of its 
economy. As Mr. Borck testified, there are parts of California 
that depend on adequate seafood harvest as well, but both of 
you questioned whether increased flows actually lead to more 
fish, particularly with the Fish and Wildlife Service's latest 
flow proposal on the Delta smelt. I have a lengthy report from 
Dr. Scott Hamilton that studies the proposed smelt flows, and 
it concludes that ``they do not demonstrate that increasing 
outflows is a viable method of increasing the abundance of 
adult Delta smelt.''
    What I have heard from you is that billions of gallons have 
been diverted from farms and communities and billions of 
taxpayer and rate payer dollars have been spent, but that fish 
levels keep on declining. All of this begs the question of 
whether the Federal Government's plans are actually working and 
whether they should be repeated in light of that failure.
    So here is the question: What metrics are in place to 
determine whether more water equals more fish? Mr. Sutton, Mr. 
Azhderian.
    Mr. Sutton. Well, maybe the question would be better sent 
to the Federal agencies. We have struggled on looking at this. 
The metrics, it is hard to say, but in response to your 
question, I do want to point out, since 1992, the passage of 
CVPIA, increased implementation of biological opinions have 
gotten more and more restrictive. We have seen our water supply 
get more and more regulated, repurposed to other uses, 
inability to be able to divert that water, to points that we 
have never seen. We have made it through other droughts. In the 
late 1980s, early 1990s, and mid-1970s, we saw droughts that 
were as bad as what we are experiencing, they are very close to 
what we are experiencing now. Since that time, we have spent 
well over a billion and a half dollars in ecosystem 
restoration.
    Dr. Fleming. Mr. Sutton, I hate to interrupt you, but I 
have more questions.
    Mr. Sutton. I am sorry. OK.
    Dr. Fleming. And the question is metrics, and from what I 
am taking from your response----
    Mr. Sutton. I don't have those metrics.
    Dr. Fleming. You don't have any.
    Mr. Sutton. What we know, the fish are not recovering----
    Dr. Fleming. OK.
    Mr. Sutton [continuing]. And we are harming farmers as 
well.
    Dr. Fleming. Mr. Azhderian?
    Mr. Azhderian. Mr. Chairman, in terms of monitoring 
programs that aim to clearly demonstrate if the use of water is 
affecting beneficially a change in fish, there aren't 
deliberate and concerted efforts to measure it that way. We 
really have the abundance indices to rely upon.
    What we have seen, for example, since the implementation of 
the Fish and Wildlife, National Marine Fisheries Services BiOps 
and the constraints on pumping, is far less pumping occurring 
and fish declines co-occurring. And millions of acre-feet have 
been dedicated to environmental management purposes----
    Dr. Fleming. So, again----
    Mr. Azhderian [continuing]. Over the last several decades, 
and the fish have not responded.
    Dr. Fleming. So, you are not even able to impute in any way 
that, but just anecdotally, that there is an increase in fish 
as a result of more water. I mean, I am a physician and a 
businessman. Everything we do, we measure for effectiveness. So 
it does not make sense to me to be spending literally billions 
of dollars and not even checking to see if there are any good 
results of that.
    Now, Mr. Borck primarily blames the infrastructure as the 
problem. What is your response to that and what is your 
alternative to helping the fish?
    Mr. Azhderian. Clearly, the fishing industry is hurting, as 
the agricultural community is, and no one wants to see that.
    In terms of improving salmon abundance, there are a number 
of methods that we could be employing. We could be improving 
hatchery production, we could be improving harvest practices, 
we could be implementing mark select fisheries to better 
protect the wild stocks and better identify the hatchery fish, 
making it safer for fishermen to do their harvest. There are a 
lot of things that could be done, that are done in the Pacific 
Northwest in Oregon and Washington, that are not done in 
California for whatever reason.
    Mr. Sutton. I would add, the NMFS action has been solely 
focused on temperature and getting the young to come out, and 
that is an important part. The degree we were talking about is 
a couple of percent to provide the water that would keep water 
users from a catastrophic disaster, yet we have done nothing to 
focus on how that juvenile can get down the river system, get 
through the Delta and get to the ocean. And focusing on that 
life stage is just as important. There is a lot of investment 
that the Sac Valley water users have voluntarily engaged in to 
try and protect that life. We have to focus on the whole life 
cycle. We just keep turning the water knob unsuccessfully.
    I also want to say the striped bass measure that you guys 
recently passed, Mr. Denham's bill, thank you. There are other 
stressors that are just being completely ignored that do not 
account for taking water away from folks.
    And, last, we have to build more storage. We have ignored 
that for decades. Sites Reservoir is a good answer that can 
help solve this cold water problem by interacting with Shasta.
    Dr. Fleming. I am running out of time, but it sounds like, 
to sum it up, we keep doing the same old things, getting the 
same poor results, but somehow expecting some better results. 
And it sounds like to me it is time to look at other things.
    I now yield to the Ranking Member.
    Mr. Huffman. Thank you, Mr. Chairman. The other problem is 
we keep making the same old claims that have been refuted and 
debunked time and again. One of them is that these biological 
opinions and the flow parameters that are driven by them are 
somehow not based on science.
    I will ask our witnesses from the Fish and Wildlife Service 
and the National Marine Fisheries Service quickly about that. 
These opinions were challenged in court, correct? And they were 
upheld by the Federal courts, correct? Then at the behest of 
those who have continued to criticize them, there was an 
independent peer review by none other than the National Academy 
of Science, correct? And they were upheld as being 
scientifically justified by the highest peer review body in the 
United States of America, correct?
    I would hope that we can move beyond continuing to 
misrepresent the facts on this important issue.
    One thing that should be beyond dispute is that for the 
last 2 years, the project operators have found flexibility 
within those biological opinions in order to redirect some 
water that could have gone to fisheries protections, and 
instead moved them into water deliveries.
    So, Mr. Murillo, I just want to ask if it is true that 
state and Federal agencies used existing flexibility under the 
Endangered Species Act to redirect about 1.3 million acre-feet 
over the last 2 years, and doesn't that show that you have been 
operating the system to try to find as much flexibility as 
possible?
    Mr. Murillo. Yes, we have worked with the fisheries the 
last couple of years to use the flexibility that exists within 
the biological opinions to move more water to Ag.
    Mr. Huffman. One consequence of operating the system with 
that aggressive flexibility has been fishery impacts, as we 
have heard from our fisheries agencies. So, I just want to ask 
the two fisheries agencies here if they would agree with the 
proposition that that flexibility has in turn caused some harm 
to the struggling fisheries?
    Dr. Lohoefener. Thank you for the question, Congressman 
Huffman. Well, one of the aspects I am proudest of over the 
last 8 years is the collaboration that has been built between 
the Bureau of Reclamation, National Marine Fisheries Service, 
California Department of Water Resources, and California Fish 
and Wildlife. That collaboration has led today to where we make 
much wiser decisions, but also to recognize----
    Mr. Huffman. But my question is whether that flexibility 
has resulted in some negative consequence to the fisheries. I 
need a quick answer, if you could, please.
    Dr. Lohoefener. Implementation of the biological opinion 
only minimizes harm, it does not remove harm.
    Mr. Huffman. All right. And, Mr. Thom, would you agree with 
that?
    Mr. Thom. I would just say it has shown from the monitoring 
data for both 2014 and 2015 that the survival rate of winter-
run Chinook was very low coming out of the Sacramento system 
over those 2 years.
    Mr. Huffman. One of the things at the heart of our 
discussion here today is that we are continuing to operate the 
system very aggressively to try to maximize water deliveries, 
and one consequence of that with the Bureau's temperature 
management proposal for Lake Shasta and the Sacramento River, 
is that if it turns out that you have run the system too hard 
and you have to cut back deliveries to conserve cold water, 
there is a whiplash effect on Mr. Sutton and on others. So, I 
am sympathetic to the testimony that he gives about the lack of 
certainty and the fact that he has planted crops, he has taken 
out loans, and he is feeling some potential whiplash if this 
has to happen. Yet, isn't that a consequence of this philosophy 
that you run the system as aggressively as you can with zero 
margin for the fishery, and then if it looks like you are about 
to hit an extinction problem, you cut back deliveries?
    There are others that are proposing that we should actually 
legislate something like that, that we should only cut back for 
the smelt when they are found exactly in the right place based 
on real-time management, which would produce that exact same 
whiplash effect.
    So, I guess I am wondering--I have already heard Mr. Sutton 
explain why this is not working too well for his farmers, that 
lack of certainty, but I will ask you, Mr. Borck, how well is 
it working, the fact that we are operating the system to 
minimum protections and aggressively, with zero margin for 
error for the fisheries? How has that been working for the 
fisheries side of the system?
    Mr. Borck. Does anyone want to buy a boat? It is not 
working. We have half a season. We have Oregon closed. It is 
not working.
    I don't know what it is going to take, because I am not a 
scientist, but I can tell you right now what we are doing is 
not helping the fish, obviously it is not helping the farmers, 
it is not helping 38 million Californians. What we are doing 
needs to improve. At the same time, you cannot ignore the fact 
that you have coastal communities that need those fish to make 
a living.
    Mr. Huffman. Thank you.
    Thanks, Mr. Chairman.
    Dr. Fleming. OK. Mr. McClintock is recognized.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Murillo, La Nina conditions now appear likely for this 
winter, do they not?
    Mr. Murillo. I didn't hear your question, sir.
    Mr. McClintock. La Nina conditions are building now for 
this winter. Are we looking at another likely dry winter?
    Mr. Murillo. I don't know for sure what the outcome is.
    Mr. McClintock. Well, I am told that La Nina usually 
follows an El Nino, and the forecasts I am seeing are for a 
very dry winter coming up, or certainly a strong possibility of 
that. My principal concern is the condition of Folsom Lake 
Reservoir. The fish agency required that Folsom be drawn down 
dramatically now so that cold water can be held back at Shasta 
to adjust river temperatures in the fall. Recreational 
businesses have already been notified they are going to be 
closing very early. Some of them are going to be going out of 
business as a result of these early closures. That is not the 
principal danger. The principal danger is that we never 
completed Auburn Dam upriver, so we have no way to replenish 
Folsom if there is a dry winter, and Folsom is the principal 
source of water for the city of Roseville and its surrounding 
communities.
    My concern is what contingencies your bureau has made for a 
dry winter coming up if you are draining Folsom right now for 
the fish?
    Mr. Murillo. The plan has it that at the end of September, 
we will have about 300,000 acre-feet in Folsom Reservoir.
    Mr. McClintock. But that is about a third of its capacity 
and facing a dry winter with no way to replenish it.
    Mr. Murillo. Yes. Absolutely.
    Mr. McClintock. Don't you think that that is irresponsible?
    Mr. Murillo. Well, we run the system as a whole. It is a 
system we run. Folsom is part of that system. One thing that we 
try to make sure is we try to protect the interests that those 
stakeholders have in Folsom. That is why we----
    Mr. McClintock. Well, you are not, because you are ordering 
the early drainage of that reservoir to meet these fish 
appease.
    Mr. Sutton, the Ranking Member referred to the fact that we 
do have an historic drought. It seems to me in drought 
conditions, shouldn't we be more careful to hold back what 
water remains behind our reservoirs?
    Mr. Sutton. I agree.
    Mr. McClintock. Have we done so?
    Mr. Sutton. Some of the actions are self-defeating.
    Mr. McClintock. Well, they are inexplicable.
    Mr. Sutton. Yes.
    Mr. McClintock. I mean, the fact is Californians made 
exemplary efforts, they sacrificed their lawns, their gardens, 
they disrupted their lives, only to turn around and watch the 
government release billions of gallons of water to adjust river 
temperatures. I wonder what moral authority is government to 
demand draconian sacrifices by our people when it treats the 
remaining water so frivolously.
    Mr. Azhderian, a biologist was shaking his head in my 
office last year, pointing out that in a drought salmon do not 
enter rivers because the water is too warm and there is not 
enough of it. He said that by artificially cooling the water 
through releases and pulse flows, we end up tricking them into 
doing something their own instincts warn them not to do, and it 
doesn't end well for them. In fact, we have heard that right 
now. What are your thoughts?
    Mr. Azhderian. I think in looking back over historical 
changes in weather patterns and in salmon abundance, what you 
will find is we have large numbers of salmon returning after 
dry years and we have small numbers of salmon returning after 
wet years. There is a lot in play after they get through that 
initial spawning phase.
    Is temperature management important? Of course it is, but 
we have spent months, thousands of hours, working through 
hundreds of operational scenarios to debate a 1 or 2 percentage 
point change in temperature-related survival, when what we know 
on average is 99 percent of the salmon, through one form of 
mortality or another, are not going to return anyway.
    Our point is more about proportion and being able to do 
things that address the larger contributors to the mortality of 
salmon, and better managed salmon, to ensure that fishermen can 
catch a healthy harvest when they need it.
    Mr. McClintock. Mr. Borck, are we doing enough to 
supplement salmon populations through fish hatcheries?
    Mr. Borck. I am not a scientist.
    Mr. McClintock. No. You're a fisherman. But are we doing 
enough to supplement these salmon populations?
    Mr. Borck. I would say that----
    Mr. McClintock. The reason I ask is there is a movement to 
tear down the Iron Gate Dam on the Klamath River. When the Iron 
Gate Dam is torn out, the Iron Gate Fish Hatchery goes with it. 
The Iron Gate Fish Hatchery produces 5 million salmon smolts a 
year. That will all be gone when that dam is torn down.
    Do you think that is good public policy for your colleagues 
in the fishing industry?
    Mr. Borck. I think a healthy environment and a healthy 
planet are in the best interest----
    Mr. McClintock. Do you support----
    Mr. Borck. Sir----
    Mr. McClintock [continuing]. Or oppose----
    Mr. Borck [continuing]. Please let me finish.
    Mr. McClintock [continuing]. Destroying the fish hatchery? 
That is a simple question.
    Mr. Borck. I think losing a hatchery for the better good of 
a river system is good policy.
    Dr. Fleming. The gentleman yields.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. And I want to 
commend you for holding this hearing, because I think it 
highlights what really is the situation in California, and that 
is a broken water system. The testimony and the questions, I 
think, all point out to the difficulty of a saying that I think 
aptly describes what we are dealing with, and that is, 
continuing to do what we have always done and expect different 
results, that is a definition of insanity, and that is what we 
are doing here by this additional flow that has taken place 
through the summer runs.
    Mr. Lohoefener, I really commend your efforts over the 
years and your service to our country and your efforts to try 
to solve problems. Let me ask you, this summer outflow 
requirement--and certainly I think U.S. Fish and Wildlife 
Service ought to be combined with NMFS, that was a point that 
was made earlier. But this summer outflow requirement, is there 
anything in the biological opinion that requires this to take 
place?
    Dr. Lohoefener. Thank you for the question, Congressman 
Costa. The current biological opinion, the 2008 opinion, only 
addresses outflows for a fall outflow under wet conditions.
    Mr. Costa. So, the answer is no, there is nothing required 
in terms of summer outflows?
    Dr. Lohoefener. In terms of summer outflow, there is 
nothing required in the opinion.
    Mr. Costa. OK. Then, Mr. Murillo, would you describe this 
action that has taken place this summer as a voluntary action?
    Mr. Murillo. Yes, a voluntary action.
    Mr. Costa. OK. So it is a voluntary action. Now, let me 
give you some perspective, folks, of what we are talking about, 
notwithstanding good intentions. And I care about restoring the 
salmon fisheries. I know salmon fishermen have been impacted, 
just as farmers in my area have been impacted with hundreds and 
thousands of acres that have gone fallow, farm communities, 
farmworkers, $2.7 billion in losses to the agricultural 
communities in the valley, and thousands and thousands of jobs 
that have been lost.
    Having said that, this action this summer, this is what it 
does, and correct me if I am wrong, 300,000 cubic feet per 
second to move a salinity line down to Cache Slough that is 
several kilometers in length, right? And what we are talking 
about is 300,000 cfs of tidal influence. So, somehow we are 
going to use 300 cubic feet per second to move back 300,000 
cfs, cubic feet per second, of salinity that flows into the 
Cache Slough there as a result of the San Francisco-Sacramento 
Delta. Is that correct, Mr. Murillo? Is that what we are 
talking about?
    Mr. Murillo. I believe so.
    Mr. Costa. Ren, do you have any disagreement with that?
    Dr. Lohoefener. The need is for habitat, so we are trying 
to take the habitat in the----
    Mr. Costa. Absolutely. So, why shouldn't we be focusing on 
habitat? Why shouldn't we be focusing on nonpoint discharges 
that put pollutants in the water? Why shouldn't we provide more 
habitat for the Delta smelt so that they can survive? Why 
shouldn't we be dealing with a predator control program?
    To Mr. Sutton's comment, we are continuing to do what we 
have always done, which is driving me crazy, maybe no one else 
is going crazy, and that is that we are using the water knob, 
and saying, OK, it has not worked so well, it is continuing to 
decline, yes, the fisheries are declining, but we will continue 
to do what we have always done.
    Does that bother you, Mr. Lohoefener?
    Dr. Lohoefener. Well, Congressman Costa, as usual, you are 
right. There are many threats out there: invasive species, both 
plants and animals, water quality, but unless you keep the 
habitat you need for the smelt, all those other factors are 
going to be moot.
    Mr. Costa. But we are not doing the other things.
    Dr. Lohoefener. We need to keep the water, we need to keep 
habitat----
    Mr. Costa. I understand, but we are not doing the other 
things, and you are working with one tool, one arm behind your 
back. Three-hundred cfs, I maintain, at the end of the day, 
with no--are there any matrices that you have to show after 
this effort in July, August, and September, that we are going 
to be able to weigh it to determine whether or not we have made 
any difference?
    Dr. Lohoefener. As I think you know, Congressman, the Delta 
smelt is definitely on the brink of extinction this year.
    Mr. Costa. No, I understand. That is not my question. My 
question is, are there any matrices----
    Dr. Lohoefener. The state has been----
    Dr. Fleming. Mr. Costa----
    Mr. Costa. Excuse me, please. I would like--It is impolite. 
Please.
    Dr. Fleming. I apologize.
    Mr. Costa. I would like to reclaim the rest of my time.
    Dr. Lohoefener. The state has been doing surveys for Delta 
smelt for over 50 years now. We have greatly improved those in 
the last 10 years. If we see some----
    Mr. Costa. Is there any real-time monitoring that is going 
to determine the effects or a matrix for the next 3 months?
    Dr. Lohoefener. I believe if the surveys find Delta smelt 
still alive this year, then keeping the habitat and some----
    Mr. Costa. But that is not a matrix and that is not a way. 
You are very good, and I appreciate your ability to avoid 
answering the question, but the answer is no. There are no 
matrices that have been developed to determine this particular 
voluntary, not in the biological opinion, outflow that we are 
pursuing this summer for what I would state is de minimis, at 
best, returns.
    One quick last question, Mr. Chairman.
    Has there ever been a time in the history of the allocation 
with the Bureau of Reclamation when after good, bad, 
indifferent, we know we are in drought conditions, in April 
they make the allocations to the Federal contractors, that 2 
months later, they said, you know, we said that in April, but 
we really didn't mean it, we are going to have to make changes?
    Mr. Azhderian. There have been other examples of that, 
Congressman. In 2013, Reclamation's initial announcement was 25 
percent allocation. Shasta storage was over 100 percent of 
average. In March, Reclamation announced that due to dry 
conditions they were going to have to deallocate or unallocate 
5 percentage points, so they went from a 25 to a 20. Since 
implementation of sort of the regulatory era, if you will, 
beginning in 1992, there have been 3 years since that time that 
CVP Ag. service contractors south of the Delta received 100 
percent supply. Hasn't happened since 2006. And there have been 
three times when the allocations have been reduced on CVP 
contractors south of the Delta as a result of circumstances for 
environmental management.
    Mr. Costa. All right. Thank you.
    Dr. Fleming. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. Mr. Sutton, we talked 
about it a little bit already here. I mean it has certainly 
been one thing that your district and your neighbor districts 
there had zero allocation, zero in 2014 and 2015. And then to 
be told when the lake has reached an incredible fullness that 
you would go out and plant crops, and sometime in May perhaps, 
after the crops are in the field, the fertilizer has been 
bought, the tractors have been run, money has been borrowed 
from the banks, say, oh, wait a minute, you are not going to 
get the allocation now. I don't even probably have to get the 
answer as to how devastating that is going to be in the middle 
of the year. I used to represent that in the state legislature. 
Mr. Garamendi has the privilege of representing those counties 
now below Tehama. I have seen the boarded up windows, the 
closed down tractor and auto dealerships, and the small 
storefronts. I mean, how devastating would this be to your 
constituents?
    Mr. Sutton. Thank you for the question. Like I said, not 
that I want to encourage David to give me zero allocations in 
the future, but those were trying years, desperate years. But 
what could have occurred this year, what we have come on the 
precipice of almost happening, with 8,000 cfs, the initial 
recommendation from NMFS, they would have had to turn our water 
off completely, not because the water wasn't there, but we 
could not divert it because the senior water rights and fishery 
protections would take the priority. Even the senior water 
right holders would have suffered greatly. They have been 
having impacts to their pumps, having to pump water instead, 
and some folks not able to plant.
    Mr. LaMalfa. You mean from wells, well water.
    Mr. Sutton. Well water. Pardon me. Thank you. So what would 
have happened? I sit as a member of the Glenn-Colusa Farm 
Production Credit Association that loans out these operating 
loans to these farmers to plant their crops and get them 
through harvest to pay that back. Lending institutions, 
businesses, farmers would have been lost.
    Mr. LaMalfa. Let me jump in there. Did you hear the 
testimony, did you see that on March 22 we had Eileen Sobeck of 
NOAA here to talk about the levels of Shasta.
    Mr. Sutton. Correct.
    Mr. LaMalfa. I asked her point blank, what would it take, 
how much water would have to be in the lake for you to assure 
the senior water rights holders, as well as others, that they 
are going to get their allocation? She said 4.1 million acre-
feet, which is somewhere around 95 percent of full or 108 
percent of the average over the years. And at that point they 
started dumping water and the lake only filled to 3.95 million, 
but that is a different story.
    So what does that mean, if the lake has to reach a level of 
4.1 million every year, that if it is below that, you are not 
going to see an allocation? This is what is going to be played 
in order to have a temperature goal be met in September or 
October or what have you?
    Mr. Sutton. We are heading on a trajectory that is 
unsustainable for the CVP if that is where we are at.
    Mr. LaMalfa. Mr. Thom, would you address that too, please?
    Mr. Thom. I am sorry, could you repeat the question, I am 
not sure I understand----
    Mr. LaMalfa. Well, let me shift gears on that then. Does 
your agency believe that no winter-run salmon will return to 
the river in 2017 and 2018 based on the shouting about what the 
numbers were going out the river during the 3 years previous?
    Mr. Thom. Yes, based on the high mortalities in 2014 and 
2015 that we saw in the juvenile outmigrants, we expect very 
few return spawners, very low year classes to come back in 
those later years.
    Mr. LaMalfa. What is the sampling system used to determine 
that, especially during high flows?
    Mr. Thom. The adult fish returning are counted----
    Mr. LaMalfa. Counting the outflow.
    Mr. Thom. The outflows are used through smolt trapping 
carried out by the California Department of----
    Mr. LaMalfa. How do you smolt trap during high flows?
    Mr. Thom. You don't. You actually subsample some of those.
    Mr. LaMalfa. Mr. Sutton, would you touch on how that 
sampling system works in your observation?
    Mr. Sutton. Just from our observations and conversations 
with NMFS, one frustrating thing about the numbers reported for 
2014 and 2015 are those fish move when they get these pulses, 
the indicator, the environmental indicator to make them migrate 
downstream, which is flow. When you get that flow, they 
actually anchor to the Red Bluff--these screw traps to the Red 
Bluff diversion dam, the facilities that we run there. And in 
those circumstances, when you imagine most of those fish are 
moving by, those traps are out of the water.
    Mr. LaMalfa. They are not counting the actual fish in the 
traps----
    Mr. Sutton. They can't.
    Mr. LaMalfa. So we don't even have a real sample, do we?
    Mr. Sutton. Not during the primary time that we would 
imagine they are migrating.
    Mr. LaMalfa. During the primary time when most fish would 
be moving. So we can expect perhaps really great returns in 
2017, 2018. We don't really know, do we?
    Mr. Sutton. I don't believe so. And we are certainly 
hopeful that that is true.
    Mr. LaMalfa. Mr. Azhderian, how much water could be in San 
Luis Reservoir if 110,000 cfs was not running straight out to 
the ocean during March and they were actually putting that 
water into the reservoir? Could it be 2 million acre-feet 
instead of 1 million full?
    Mr. Azhderian. It is difficult to say, Congressman, because 
California's regulatory environment is an onion and there are 
so many layers.
    Mr. LaMalfa. If they were actually pumping, if they were 
pumping the water, could you have----
    Mr. Azhderian. Yes. It certainly should be a lot fuller 
than it would be today. And I think one of the implications, 
this was brought up earlier, about the decisions that were made 
in May and June to change the temperature management plan is 
the way it affects 2017. As Mr. Sutton had indicated, farmers 
were out, they were considering purchasing transfer water. 
Those opportunities were passed on because of anticipating a 
full San Luis Reservoir in 2017. Now that seems highly 
unlikely. In fact, there may be a deallocation from 5 percent 
to zero percent for west side users, and an empty San Luis 
Reservoir as we roll into next year. So clearly, the impacts of 
passing on those opportunities only to have the management come 
in and second-guess----
    Mr. LaMalfa. Thank you. Mr. Chairman, I would like to enter 
into the record, this is a study commissioned by Mr. Scott 
Hamilton, who is a Ph.D., which would indicate that no 
relationship between summer flows and summer survival of Delta 
smelt is indicated by these high flows during the summer.

    Dr. Fleming. Without objection, so ordered.

    [The information follows:]

            WILL INCREASING DELTA OUTFLOW HELP DELTA SMELT?

Scott Hamilton, Ph.D., Center for California Water Resources Policy & 
                    Management

                                                          Draft 5/31/16

EXECUTIVE SUMMARY

While the correlations between abundance and estuarine outflow have 
been well established for some species, there appears to be 
considerable uncertainty regarding the benefit of outflows for delta 
smelt. Here we provide a brief overview of the relationship between the 
abundance of delta smelt and delta flows during various seasons, 
drawing on previous studies and publicly available data. The 
conclusions we draw are:

  1.  There is no correlation between spring flows and abundance in the 
            summer or fall (Kimmerer et al. 2009).

  2.  A correlation between spring flows and spring abundance since 
            1995 has been noted (IEP MAST 2015) but this relationship 
            does not persist to the fall (Kimmerer et al. 2009).

  3.  The available data shows no relationship between summer flows and 
            summer survival (Bullet #3 under ``Supporting 
            Information'', below).

  4.  The available data shows no relationship between fall flows and 
            either survival during the fall or subsequent recruitment 
            (Bullet #4 under ``Supporting Information'').

  5.  While the theory underlying hypothesized mechanisms between flows 
            and abundance of aquatic species in general is well 
            documented, the importance of these mechanisms for delta 
            smelt, when tested, has not been well supported (Kimmerer 
            2002a, Kimmerer et al. 2009).

  6.  Numerous data points exist where measures of fish success are 
            high at low outflows, and low at high outflows. Without 
            understanding the underlying mechanisms, it is possible 
            that increasing flows may adversely impact delta smelt (see 
            e.g. Figure 5 below).

  7.  There is not sufficient water available from other sources to 
            increase outflows and move the X2 salinity line by more 
            than 1-2 km. Such a minor change in the X2 line is 
            extremely unlikely to make any significant difference for 
            delta smelt and would come at great cost to other 
            beneficial uses.

  8.  The existing studies and the best available public data, do not 
            demonstrate that increasing outflows is a viable method of 
            increasing the abundance of adult delta smelt.

Given the uncertainty surrounding the relationship between outflow and 
impacts on delta smelt, the potential harm to the species and the 
implications of reallocating water from other beneficial uses, if more 
flows are to be pursued for the benefit of delta smelt, we would ask 
that the Collaborative Science and Adaptive Management Program (CSAMP) 
be asked to examine the science underlying specific flow proposals.
BACKGROUND

    <bullet> Delta smelt are an endangered fish in California's 
            Sacramento-San Joaquin Delta and Estuary that, for the most 
            part, live for just one year. Listed in 1993, its numbers 
            have declined severely and they now persist at less than 1% 
            of their number at the time of listing.

    <bullet> The status of delta smelt, as a species, is gauged by 
            calculating ``abundance indexes'' from several fish surveys 
            in the estuary. An abundance index is intended to provide 
            an indication of how well a species is doing in relative 
            terms but doesn't translate into a specific population 
            size. The best known are the Fall Midwater Trawl (FMWT) 
            Index, summer Tow Net Survey (TNS) Index \1\ and the 20-mm 
            Survey Index. The indexes are now at record low levels. The 
            20-mm Index, for example, has been as high as 39, averages 
            11, and in 2015 was at 0.3.
---------------------------------------------------------------------------
    \1\ Also referred to here as the STN Index

    <bullet> Increased flow could help aquatic species in a variety of 
            ways: spawning habitat area and volume, spawning habitat 
            access, habitat space, predation avoidance through 
            turbidity and shallows access, reduced entrainment, toxics 
            dilution, increased entrapment zone residence time, habitat 
            diversity, more favorable water temperatures, strengthened 
            gravitational circulation, migratory cues, and higher food 
---------------------------------------------------------------------------
            production (EET 1996, Kimmerer 2002b)

    <bullet> Increased outflow has been proposed as one measure that 
            might help delta smelt in the Sacramento-San Joaquin Delta 
            because abundance of some other species is correlated with 
            outflow.\2\ Outflow if often quantified using ``X2'' as a 
            metric. X2 designates the location of the 2% bottom 
            salinity (grams of salt per kilogram of seawater) along the 
            axis of the estuary and is measured in km from the Golden 
            Gate Bridge. The lower X2, the higher the outflow. It is a 
            sensitive index of the estuarine community's response to 
            net freshwater inflow.\3\
---------------------------------------------------------------------------
    \2\ Kimmerer et al 2009, IEP MAST 2015
    \3\ Jassby et al 1995, p.272

SUPPORTING INFORMATION
(Bullets correspond numerically with the executive summary)

Spring Flows

1.   Kimmerer et al. (2009) studied the relationship between spring X2 
and abundance of delta smelt in the summer and fall and found: \4\
---------------------------------------------------------------------------
    \4\ As reported in Table 2

          <bullet>  a statistically significant (p=0.018) positive 
        relationship (abundance increases as spring outflows decrease) 
---------------------------------------------------------------------------
        in the summer Tow Net Survey for the period 1959-1981,

          <bullet>  a slight negative but insignificant (p=0.38) 
        relationship in the summer Tow Net Survey for the period 1982-
        2007,

          <bullet>  a slight positive relationship but of marginal 
        significance (p=0.14) in the Fall Midwater Trawl, and

          <bullet>  a slight negative but insignificant (p=0.6) 
        relationship in the Bay Midwater Trawl. That is, Kimmerer 
        showed that spring outflows were either bad for delta smelt or 
        not significant, and, consistent with earlier studies,\5\ 
        concluded \6\ ``abundance of delta smelt did not vary with 
        X2''.\7\
---------------------------------------------------------------------------
    \5\ Jassby et al (1995), Kimmerer (2002a)
    \6\ Kimmerer 2009, p.385
    \7\ Here and in other places throughout this document, balding and 
underlining is emphasis added in this document and does not occur in 
the source documents

2.   Using 20-mm abundance (representing young fish, as opposed to 
summer and fall abundance used by Kimmerer et al 2009 and representing 
older fish) Figure 79 of the IEP MAST (2015) report (reproduced as 
Figure 1 below) depicts a non-linear relationship between spring X2 and 
abundance, with abundance increasing as X2 moves westward to 64 km and 
---------------------------------------------------------------------------
then abundance decreasing as X2 moves further westward.

[GRAPHIC] [TIFF OMITTED] T0918.008


.epsFigure 1. Plots of the Delta Smelt 20 mm survey abundance index as 
        a function of spring (February-June) X2.
Source: IEP MAST (2015), Figure 79.

        The IEP MAST report notes \8\ that ``after 19 years, the 20mm 
        survey now provides barely enough annual abundance data points 
        (indices) to conduct multiple regression analyses with up to 
        two predictor variables.'' Consequently, we looked to see if 
        the same relationships held with the STN Index (See Figure 2 
        below). Similar to Figure 1, we observed the response curve has 
        flattened in recent years.
---------------------------------------------------------------------------
    \8\ p.154

        The relationship depicted in Figure 1 provides no guidance as 
        to causality. Indeed the report specifically calls out that 
        ``individual and interactive effects of additional factors were 
        not considered in this analysis, but are likely also 
        important.'' \9\
---------------------------------------------------------------------------
    \9\ p.153

        Even if spring abundance is increased, a comparison of the 
        abundance indexes for the different life stages of delta smelt 
        shows the least correlation between summer and fall. This 
        suggests that even if spring abundance is increased, it is 
        unlikely to result in an increased number of adults unless the 
        problems in late summer and fall, which could include factors 
        such as predation and lack of food, are addressed. 
        Consequently, the correlations between spring outflows and 20mm 
        abundance have not been found with abundances in the fall.\10\
---------------------------------------------------------------------------
    \10\ Kimmerer et al 2009
---------------------------------------------------------------------------

         Relationship between Summer Abundance and Spring Flows

[GRAPHIC] [TIFF OMITTED] T0918.009


.epsFigure 2. Relationship between summer abundance, as determined by 
        the STN Index, and spring outflow, determined by the average X2 
        location between February to June, 1980-2015.
Sources: TNS Survey, Dayflow.

        A check of the 2003-2013 data from the IEP MAST report (see 
        Appendix A, below) found the nonlinear term to be insignificant 
        and X2 itself to be barely significant (p=0.046) with a 
        coefficient of -0.345. That is, for every 1 km X2 is moved 
        westward, the spring abundance index would increase by 0.345. 
        But there is considerable uncertainty around this coefficient 
        because of the limited number of data points and wide 
        variability in the data--the standard error is 0.146 suggesting 
        the 95% confidence interval for the coefficient is 0.053 to 
        0.637.

        The 20mm survey, which began in 1995, was specifically designed 
        to improve the sampling of young delta smelt. As such, it has 
        advantages over other surveys. However, the period from 1995 to 
        1999 was wetter than normal. And the last several years, ending 
        in 2015 has been drier than normal. Throughout the period the 
        abundance of delta smelt has generally been decreasing. Delta 
        smelt abundance may be decreasing as a result of hydrology, or 
        it may be decreasing due to some other factor not quantified, 
        but the coincidental trends with hydrology may provide more 
        significance to hydrology than is warranted. Consequently, we 
        suggest that survival and recruitment should be considered, in 
        addition to abundance.

Summer Flows

3.   Few studies seem to have been published on the relationship 
between increased summer outflow and delta smelt abundance. Nobriga et 
al. (2008) considered long-term trends in summertime habitat 
suitability finding relationships between summer abundance \11\ and 
salinity, water clarity and water temperature. Flows can influence each 
of these factors. Nobriga et al (2008) found significant relationships 
between the presence of delta smelt and the abiotic factors at a 
regional level but found no significant relationships between any of 
the water quality variables and delta smelt relative abundance at the 
estuary-wide level.
---------------------------------------------------------------------------
    \11\ Nobriga et al (2008) used delta smelt data from the summer Tow 
Net Survey

        A regression analysis of survival from summer to fall using 
        covariates of prior abundance, summer outflow and a trend 
        variable does not indicate summer flows were a significant 
        factor (see Appendix B). Figure 3 below shows the relationship 
---------------------------------------------------------------------------
        between average X2 location and summer survival.

        [GRAPHIC] [TIFF OMITTED] T0918.010
        

.epsFigure 3. Relationship between summer survival, as determined by 
        the ratio of the FMWT Index divided by the STN Index, and 
        summer outflow, determined by the average X2 location June to 
        August, 1969-2014.
Sources: TNS Survey, FMWT Survey, Dayflow.

        Lund et al (2015) depict a delta hydrograph \12\ that has 
        flattened over time with lower spring outflows and higher 
        summer outflows. Flows through the Delta, July through 
        September, are now higher than they would have been absent the 
        CVP and SWP due to reservoir reregulation from spring to 
        fall.\13\ Has this flatter hydrograph favored non-native 
        species at the expense of native species? Too many factors have 
        changed simultaneously to provide a definitive answer, but 
        providing even more summer outflow would be inconsistent with 
        the natural hydrograph.
---------------------------------------------------------------------------
    \12\ Their Figure 1, p.4
    \13\ Hutton et al (2015)

---------------------------------------------------------------------------
Fall Flows

4.   MacNally et al. (2010) considered fall abundance of delta smelt 
and found a relationship with fall outflow but the Odds Ratio was 
0.14.\14\ An odds ratio greater than 3.2 is needed to conclude 
substantial evidence, and greater than 10 to conclude strong evidence.
---------------------------------------------------------------------------
    \14\ It was actually reported by MacNally et al. as ``1/7.1'' but 
converted here for ease of comparison

        Thompson et al. (2010) found no significant relationship 
        between delta smelt abundance and either spring X2 or autumn 
---------------------------------------------------------------------------
        X2.

        Feyrer et al. (2007) found that salinity (EC at individual 
        stations) during the fall explained 60% of the variation in 
        recruitment (summer abundance compared to prior fall) after the 
        clam invasion (post 1986). However, there appears to be no 
        significant relationship between the monthly average EC at FMWT 
        stations and monthly average X2 in the fall, suggesting that 
        increasing outflow to modify X2 will not necessarily result in 
        a change in the average EC at FMWT stations. Consequently it is 
        difficult to detect a relationship between Fall X2 and 
        recruitment (see Figure 4 below).

        A graphical analysis of both survival during the fall and 
        subsequent recruitment suggest increased outflows during the 
        fall are just as likely to be bad for delta smelt as good for 
        them (see Figures 4 and 5 below). Some of the higher survival 
        and recruitment actually occurs when fall outflows are low (X2 
        greater than 80). This should be of particular concern. It 
        suggests that a clear understanding of the underlying 
        mechanisms is not known and that, in a variety of 
        circumstances, increasing flows may decrease abundance.

        [GRAPHIC] [TIFF OMITTED] T0918.011
        

.epsFigure 4. Relationship between Fall Survival, as determined by the 
        SKT Index divided by the prior STN Index, and fall outflow, 
        determined by the average X2 location, September to December, 
        2001-2015. The survival ratio of winter abundance to summer 
        abundance was used for the survival metric to avoid any overlap 
        with the explanatory variable of flows during the fall.
Source: TNS and SKT Trawls, X2 data from Dayflow. 2002 and 2003 SKT 
        Index was estimated from SKT CPUE.
        [GRAPHIC] [TIFF OMITTED] T0918.012
        

.epsFigure 5. Relationship between recruitment, as determined by 20MM 
        Index divided by the prior FMWT Index, and fall outflow, 
        determined by the average X2 location, September to December, 
        1994-2015.
Sources: 20mm Survey, FMWT Survey, and X2 location from Dayflow.
Mechanisms

5.   Delta smelt face many stressors in the Delta including: 
degradation of habitat (loss of marshlands and flood plains, and 
decreasing turbidity), increasing numbers of invasive species 
(including aquatic weeds which have the potential to alter the 
ecosystem significantly), increasing predation and competition, 
increasing loading and toxicity of contaminants, decreasing quantity 
and quality of food supplies, harmful algal blooms and entrainment. As 
depicted in the IEP MAST conceptual model, outflow itself does not 
affect delta smelt directly but hydrology affects delta smelt by 
interacting with other dynamic drivers to impact landscape and habitat 
attributes.\15\
---------------------------------------------------------------------------
    \15\ Figure 45, with additional discussion on p.153

        Decreasing primary production in the Delta has been well 
        documented (e.g. Jassby et al 2002). Kimmerer (2002a) 
        considered potential mechanisms underlying relationships 
        between the abundance of numerous aquatic organisms and flow. 
        In regards to food, he concludes: \16\ ``For freshwater flow to 
        influence fish and shrimp through the food web would require 
        first that lower trophic levels have positive responses to 
        flow, and that these responses propagate up the food web. 
        Neither of these mechanisms is supported by the results 
        presented here.'' Furthermore ``In the Delta, in spring, 
        chlorophyll a actually decreased with increasing flow, 
        apparently because of decreasing residence time (Jassby et al. 
        2002).'' \17\
---------------------------------------------------------------------------
    \16\ p. 48
    \17\ p. 50

        In a detailed analysis of the volume of suitable habitat 
        determined primarily by salinity and flow, Kimmerer et al 
        (2009, p. 12) found that ``Despite the evident increase in the 
        amount of habitat, delta smelt abundance appears to be 
        regulated by other factors so far unidentified.'' Feyrer et al 
        (2010) developed a habitat index in the fall comprised of the 
        abiotic elements of temperature, turbidity (Secchi depth) and 
        salinity (electrical conductivity). Importantly, they show 
        graphical relationships \18\ where the habitat index increases 
        as outflow increases (X2 decreases), and an increase in 
        abundance as the habitat index increases, thus linking outflow 
        to abundance. Manly et al (2015), in a reanalysis, found the 
        importance of the abiotic elements was reduced when region was 
        considered as a covariate.
---------------------------------------------------------------------------
    \18\ In Figure 2 of their paper

        Turbidity results from: the transport of suspended sediment 
        during high flow events associated with winter and spring storm 
        events, and sediment resuspension through wind, wave and tidal 
        actions (Schoellhamer et al 2012). While there may be a general 
        relationship between flows and turbidity, artificially 
        increasing flows through reservoir releases may have little 
        influence on turbidity conditions in the delta if sediments 
        have largely settled out in upstream reservoirs. Merely 
        increasing outflows does not provide more inundation of flood 
        plains, nor release more food from them.\19\
---------------------------------------------------------------------------
    \19\ Yolo Bypass, a major floodplain on the Sacramento River 
system, only flows at significant levels when the Sacramento River 
reaches a sufficient height to over top the Freemont Weir. Merely 
releasing additional water from reservoirs would not necessarily create 
flows in Yolo Bypass. Modifications to Freemont Weir are being 
considered currently, such that flows in the Bypass may be created at 
much lower Sacramento River flows.

        Marginal increases in flows have a minimal impact on the 
        dilution of contaminants and may in fact increase the transport 
---------------------------------------------------------------------------
        of contaminants into the Delta.

        The impact of increased flows on introduced species is 
        uncertain. Some studies show that increased flows help various 
        non-native species e.g. striped bass, American shad (Kimmerer 
        et al. 2009).
        In trying to resolve uncertainties there have been continuing 
        warnings to focus on cause and effect relationships, and not 
        correlations. For example, an independent scientific review 
        warned: ``Many studies--and management decisions--rely on 
        correlations between water flows and fish populations. But the 
        decisions warrant fuller understanding of precisely how the 
        flows affect the fishes.'' \20\ ``Deeper causal understanding 
        is important for identifying and reducing risks to water supply 
        and fish populations.'' \21\
---------------------------------------------------------------------------
    \20\ Lund et al. 2015, p.i
    \21\ Lund et al. 2015, p.i

        While recognizing the correlations between flows and abundance 
        of some species ``may be due to several potential mechanisms'' 
        Kimmerer (2002b) \22\ notes that ``no mechanism has been 
        conclusively shown to underlie the flow relationship of any 
        species'' (in the Delta). He goes on to say: ``Several flow-
        based management actions were established in the mid-1990s, 
        including a salinity standard based on these flow effects, as 
        well as reductions in diversion pumping during critical periods 
        for listed species of fish. The effectiveness of these actions 
        has not been established.''
---------------------------------------------------------------------------
    \22\ p. 1275

---------------------------------------------------------------------------
Uncertainty

6.   In considering the range of data points in Figures 2, 3, 4 and 5, 
one can see that numerous data points exist where measures of fish 
success are high at low outflows, and low at high outflows. Without 
understanding the underlying mechanisms, it is possible that increasing 
flows in certain seasons are just as likely to hurt delta smelt as 
benefit them.

        Would the increased outflow achieve the desired results? There 
        is considerable uncertainty about that. Dahm (2016) drawing on 
        Rose et al. (2014) suggests Delta flows are ``now largely 
        decoupled from good habitat'' (e.g. tidal marshes, floodplains 
        and riparian zones) implying there may be little benefit of 
        more flows if these flows are only going to occur through rip-
        rapped channels. He does suggest that peak spring flows, access 
        to floodplains and marshes, higher turbidity, and sufficient 
        cool flows in the summer/fall benefit native fishes. Delta 
        water temperature is determined by the interplay between air 
        temperature, flows, winds and tides (Monismith et al. 2009). 
        While water temperatures in summer are primarily affected by 
        air temperatures, an analysis of historical data (see Appendix 
        C) suggests that additional flows in late summer will lower 
        water temperatures in some parts of the Delta. For example, an 
        additional 5,000 cfs of flow in August could lower water 
        temperatures by 0.3 degrees C at Rio Vista.

        Regrettably, native species are simply not competing as well as 
        their introduced counterparts (see Figure 6). There has been a 
        significant increase in the abundance of several non-native 
        aquatic species in the Delta. Included among these are: 
        largemouth bass, Mississippi silversides, freshwater Goby and 
        bluegill.

        SWRCB decisions protecting water quality and Biological 
        Opinions protecting native fish already ensure that more that 
        50% of Delta flows are dedicated to outflow. In an average year 
        18 million acre feet flow out the Delta. Resource managers are 
        faced with the question: will modest increase in flows change 
        the underlying dynamics?
        [GRAPHIC] [TIFF OMITTED] T0918.013
        

.epsFigure 6. The change in species composition showing native species 
        decreasing from 18% to 4% and bass and sunfish increasing to 
        74%.
Source: Louse Conrad, DWR.

Water Costs

7.   The amount of water required to move X2 varies because the 
relationship between outflow and X2 is a log-linear relationship. The 
further west X2 is, the more water it takes to move it another 
kilometer. Table 1 below shows the amount of water required to move X2 
one kilometer west from the monthly average. For the period of February 
through June, the water cost to move X2 one km is 1.1 million acre 
feet. Said differently, the cost to increase the spring abundance index 
by 1 would be 3.2 million acre feet. This quantity of water represents 
a large proportion of the annual supply in the Sacramento valley and is 
desperately needed for other purposes.
        While the percentage increase in outflows will be small, the 
        corresponding percentage change in water supply is much larger. 
        For example, a million acre feet per year represents 7.8% of 
        outflow but 20.4% of exports.\23\
---------------------------------------------------------------------------
    \23\ Since the implementation of D-1641 in 2000.

---------------------------------------------------------------------------
Summary

8.   In summary, there is considerable scientific uncertainty 
surrounding the potential benefits of additional outflow for delta 
smelt. It appears that:

    <bullet> increased outflows at any time of the year are unlikely to 
            result in more spawning adults the following winter;

    <bullet> the underlying mechanisms are yet to be verified;

    <bullet> the increase will come at an enormous water cost--a 
            challenge for those concerned with a reasonable balancing 
            of beneficial uses; and

    <bullet> there is a real possibility of potential harm to the 
            species.

        In short, there does not appear to be sufficient support at 
        this time for management actions that increase outflows for the 
        purpose of increasing the abundance of delta smelt.
        Given the uncertainty surrounding the relationship between 
        outflow and the impacts on delta smelt, we would ask that the 
        Collaborative Science and Adaptive Management Program (CSAMP) 
        be asked to consider the issue. Lund et al. (2015) state it 
        well: ``Fish abundance is driven by many factors that may or 
        may not be influenced by water flows. The relative 
        contributions of these drivers and the significance of their 
        interactions are inadequately known.'' \24\
---------------------------------------------------------------------------
    \24\ P.6

---------------------------------------------------------------------------
Acknowledgements

        This document has benefited from input from numerous reviewers. 
        It remains, however, work in progress and has not yet been 
        subject to independent peer review. Please e-mail comments on 
        this draft to: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b18030a0602071f04052b080a071c0a1f0e19080e051f0e194504190c">[email&#160;protected]</a>

        [GRAPHIC] [TIFF OMITTED] T0918.014
        

.epsThe above table and the equations presented in it were derived by 
fitting a logarithmic function to monthly averages of outflow and X2 
location. The resulting water cost estimates are necessarily 
approximations. Despite the reasonably high goodness of fit 
coefficients (R<SUP>2</SUP>), the estimates could be refined by 
employing more precise models such as those employed by Hutton et al 
(2015). The water cost estimates could also be improved by applying the 
equations in the second column to the specific year type or flow 
recommendation, rather than just applying it to an average condition.

                               Appendix A

                            Spring Analysis

Regression analysis of the relationship between 20mm Index (dependent 
variable) and the covariates of Prior Fall Midwater Trawl Index and 
Feb-Jun X2 for the period 2003-2013.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                             Appendix B

                            Summer Analysis

Regression analysis of the relationship between summer survival (FMWT 
Index/STN Index) (dependent variable) and the covariates of Summer 
Townet Index and Jun-Aug X2 for the period 1995-2015.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                             Appendix C

            Analysis of Factors Affecting Water Temperature

Regression analysis of the relationship between average monthly water 
temperatures at Rio Vista (dependent variable) and the covariates of 15 
day average air temperature at Davis, Ca, and flows at Rio Vista during 
the period 1983-2014.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


The second and third columns are the calculated standard deviations 
for 15-day average air temperature at Davis, in degrees Celsius, and 
Rio Vista flows, in cfs, by month. The third and fourth columns show 
the change is water temperature at Rio Vista resulting from the one 
standard deviation change shown in columns two and three. These 
equations were estimated using ordinary least squares regression, with 
flows being converted to log form. The regression coefficient and t-
statistics are reported in the last three columns. Note that the 
explanatory power of these covariates varies by month, from a high in 
November to a low in August, suggesting that additional factors are 
important in late summer. The consequence of a one standard deviation 
increase in flows at Rio Vista varies from of a 1.0 degree decrease in 
water temperature in May to a one 0.17 degree increase in January. The 
temperature impacts are expected to become more muted the further west 
temperatures are examined as water temperatures become more influenced 
by tides.

There are more sophisticated and elegant treatments of the factors 
affecting water temperature in the Delta (e.g. Monismith et al 2009). 
The purpose of the above analysis was to distinguish the influence of 
flows and air temperature.

References

Dahm, C. (2016) ``Delta Stewardship Council, Delta Science Program,'' 
Presentation to the SWRCB, April, 2016.

EET (1996) An assessment of the Likely Mechanism Underlying the ``Fish-
X2'' Relationships, Draft, Interagency Ecological Program, Estuarine 
Ecology Team, June 1996. http://www.iep.water.ca.gov/eet/x2fish.html, 
Downloaded 9/2/2008.

Feyrer, F., Nobriga, M., and Sommer, T. (2007) Multi-decadal trends for 
three declining fish species: habitat patterns and mechanisms in the 
San Francisco Estuary, California, U.S.A. Canadian Journal of Fisheries 
and Aquatic Sciences 64:723-734.

Feyrer, F., Newman, K., Nobriga, M., and Sommer, T. (2011) Modeling the 
effects of future outflow on the abiotic habitat of an imperiled 
estuarine fish. Estuaries and Coasts 34:120-128. doi:10.1007/s12237-
010-9343-9. Available at: http://caestuaries.opennrm.org/assets/
46ab8c3f52c799c8f3ab3f2f514bd145/application/pdf/Feyrer_et_al.2011.pdf

Jassby, A., Kimmerer, W.J., Monismith, S.G., Armor, C., Cloern, J.E., 
Powell, T.M., Schubel, J.R., and Vendlinski, T.J. (1995) Isohaline 
position as a habitat indicator for estuarine populations. Ecological 
Applications 5:272-289.

Jassby, A.D., Cloern, J.E., Cole, B.E. (2002) Annual primary 
production: patterns and mechanisms of change in a nutrient rich tidal 
estuary. Limnol Oceanogr 47(3):698-712.

Hutton, P.H., Rath, J.S., Chen, L., Ungs, M.J., and Roy, S.B. (2015) 
Nine decades of salinity observations in the San Francisco Bay and 
Delta: Modeling and Trend Evaluations, Journal of Water Resources 
Planning & Management, 142(3). Available at: http://ascelibrary.org/
doi/abs/10.1061/(ASCE)WR.1943-5452.0000617

Kimmerer, W.J., Gross, E.S., and MacWilliams, M.L. (2009) Is the 
response of estuarine nekton to freshwater flow in the San Francisco 
estuary explained by variation in habitat volume? Estuaries and Coasts. 
32:375-389. Available at: http://www.springerlink.com/content/
26pr3h5574605083/

Kimmerer, W.J. (2002a) Effects of freshwater flow on abundance of 
estuarine organisms: physical effects or trophic linkages? Marine 
Ecology Progress Series 243:39-55. Available at: http://
www.waterrights.ca.gov/baydelta/docs/exhibits/DOI-EXH-331.pdf

Kimmerer, W.J. (2002b) Physical, biological, and management responses 
to variable freshwater flow into the San Francisco Estuary. Estuaries 
25:1275-1290. Available at: http://www.springerlink.com/content/
184496u50723t617/fulltext.pdf

IEP MAST (2015) An updated conceptual model of Delta Smelt biology: our 
evolving understanding of an estuarine fish, Interagency Ecological 
Program, Management, Analysis and Synthesis Team. Technical Report 90. 
Available at: http://water.ca.gov/iep/docs/
Delta_Smelt_MAST_Synthesis_Report_January%202015.pdf

Lund, J., et al (2015) Flows and Fishes in the Sacramento-San Joaquin 
Delta: Research needs in support of adaptive management--A review by 
the Delta Independent Science Board. Available at: http://
deltacouncil.ca.gov/sites/default/files/2015/09/2015-9-29-15-0929-
Fina1-Fishes-and-Flows-in-the-Delta.pdf

MacNally, R., Thomson, J.R., Kimmerer, W.J., Feyrer, F., Newman, K.B., 
Andy Sih, A., Bennett, W.A., Brown, L., Fleishman, E., Culberson, S.D., 
and Castillo, G. (2010) Analysis of pelagic species decline in the 
upper San Francisco Estuary using multivariate autoregressive modelling 
(MAR), Ecological Applications 20:1417-1430. Available online at: 
http://online.sfsu.edu/modelds/Files/References/
MacNallyetal2010EcoApps.pdf

Manly, B.F.J., Fullerton, D., Hendrix, A.N., and Burnham, K.P. (2015) 
Comments on Feyrer et al. ``Modeling the Effects of Future Outflow on 
the Abiotic Habitat of an Imperiled Estuarine Fish,'' Estuaries and 
Coasts 38:1815-1820. DOI 10.1007/s12237-014-9905-3
Monismith, S.G., J.L. Hench, D.A. Fong, N.J. Nidzieko, W.E. Fleenor, 
L.P. Doyle, and S.G. Schladow. (2009) Thermal variability in a tidal 
river. Estuaries and Coasts 32:100-110. Available at: http://
www.centerforoceansolutions.org/sites/default/files/publications/
Monismith_et_al_2009_ESTUARIES.pdf

Nobriga, M.L., Sommer, T.R., Feyer, F., and Fleming, K. (2008) Long-
Term Trends in Summertime Habitat Suitability for Delta Smelt, 
Hypomesus transpacificus, San Francisco Estuary and Watershed Science 
6(1). Available at: http://eprints.cdlib.org/uc/item/5xd3q8tx

Rose et al (2014) Delta Interior Inflows and Related Stressors, 
Presentation by the Independent Science Board, July 25, 2014. Available 
at: http://deltacouncil.ca.gov/sites/default/files/documents/files/
Item_9_Kenneth_Rose_Presentation.pdf

Schoellhamer, D.H., Wright, S.A., and Drexler, J.Z. (2012) Conceptual 
model of sedimentation in the Sacramento-San Joaquin River Delta. San 
Francisco Estuary and Watershed Science 10(3). Available at: http://
www.escholarship.org/uc/item/2652z8sq

Thomson, J.R., Kimmerer, W.J., Brown, L.R., Newman, K.B., MacNally, R., 
Bennett, W.A., Feyrer, F., and Fleishman, E. (2009) Bayesian change-
point analysis of abundance trends for pelagic fishes in the upper San 
Francisco Estuary. Ecological Applications 20:1431-1448. Available 
online at: http://online.sfsu.edu/modelds/Files/References/
ThomsonEtal201OEcoApps.pdf

                                 ______
                                 

    Mr. LaMalfa. Thank you for your indulgence, sir.
    Dr. Fleming. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    You may be wondering why a Member from Wyoming would come 
to a hearing that is mostly a coastal states' issue. I got to 
go to Fresno to a hearing on the Delta smelt, and I got to see 
the dried up almond trees, the dead pistachio trees. We got to 
meet the farmers who are out of work, both owners and workers 
who are desperately trying to hang on to a culture, a way of 
life, a community. And they came together to address these 
issues, and it was kind of moving. So, I continue to have an 
interest in this issue.
    My question is for you, and I am going to need help with 
your name. Is it Murillo, Mr. Murillo?
    Mr. Murillo. Yes.
    Mrs. Lummis. OK. And I can address this also to your 
colleagues at the Department of the Interior. How do two 
different agencies who are overseeing endangered species act in 
contradiction to each other? We have Fish and Wildlife Service 
and NMFS, each in a tug-of-war. One wants more flow, the other 
wants less. They seem to be operating in a vacuum. Why 
shouldn't there be one biological opinion that covers both the 
smelt and the salmon?
    Mr. Murillo. That would be optimal if we could have one 
biological opinion. And hopefully, we can get there some day. 
But with respect to the tug-of-war, what we do, like we do in 
normal years, there are a lot of competing demands in the 
system, just like there was this year. What we did is we 
brought the directors together, Fish and Wildlife and NMFS 
together, and myself, and we worked up a temperature plan that 
would not only meet the NOAA requirements, but also leave some 
flexibility so that we could provide the outflows for the Delta 
smelt.
    Mrs. Lummis. Gentlemen--and I am sorry, I just walked in so 
I am a little behind the curve--could you also address that? 
NMFS and Fish and Wildlife are both represented here, correct?
    Oh, great. Could you enlighten me?
    Dr. Lohoefener. Sure. I will try. I am Ren Lohoefener, 
Regional Director for the Fish and Wildlife Service.
    Actually, we tried that prior to 2008. We were under court 
orders, both National Marine Fish Reserves and Fish and 
Wildlife Service, to deliver opinions. Those court orders, 
unfortunately, did not allow us the time to mesh those opinions 
into one. I think both my colleague from NOAA Fisheries would 
agree, ideally, we will have one coordinated biological 
opinion. I hope that is the future.
    Mrs. Lummis. And you can respond to this additional 
question. Is the court's decision binding upon you in 
perpetuity?
    Mr. Lohoefener. No, we are no longer under that opinion. As 
Congressman Huffman pointed out, those opinions have been 
reviewed and found to be valid. There is nothing that keeps us 
in the future from doing a coordinated single opinion.
    Mrs. Lummis. OK.
    Mr. Costa. Would the gentlewoman yield?
    Mrs. Lummis. Yes.
    Mr. Costa. Before you came in, I asked a question and Mr. 
Lohoefener responded, on the summer outflow, was this a part of 
the biological opinion or not? And he responded by saying that 
no, it is not part of the biological opinion. So I think it is 
important to note that. And the Bureau of Reclamation indicated 
this was a voluntary action that they were taking.
    Mrs. Lummis. Oh. So reclaiming my time, as I understand it, 
there has been a decline from 10,500 cfs to 8,000 cfs. Why?
    Mr. Murillo. The proposal was to have a plan where we 
release 8,000 cfs. The final plan ends up with a July release 
of 10,500.
    Mrs. Lummis. Thank you.
    I do want to double back to the gentleman from NMFS.
    Mr. Thom. Yes. Thank you. I would just second that. I think 
in terms of dealing with the changing circumstances in May 
where the scientists, in terms of temperature profiling, 
realized there was less cold water in Shasta Reservoir for 
fish, the Bureau came back to us to revise the plan so that we 
could maintain temperature criteria. I just want to point out 
that Mr. Murillo, Mr. Lohoefener, and myself worked together 
with our staff to come to a plan that actually merged the 
benefits to smelt and salmon in the system to come up with a 
plan that would actually work and reach agreement and move us 
forward this year.
    So, I think that has been a success of the agencies working 
together to get a plan that can actually operate through this 
year and help protect winter-run fish in the river.
    Mrs. Lummis. Thank you.
    My time is about to expire, so I yield back.
    Dr. Fleming. The gentlelady yields.
    Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Murillo, you and I have worked together quite a bit on 
water deliveries and movement throughout the Central Valley. I 
want to see if you can give me an update on New Melones and the 
increased storage that we could possibly have there.
    Mr. Murillo. I don't have the details on New Melones right 
now. I know that that part of the system is drier than it has 
been in the past. But I don't have any update on that. I 
apologize.
    Mr. Denham. OK. If you could get back to me on that. I know 
it is an issue that we have talked about in the past.
    Mr. Murillo. Absolutely.
    Mr. Denham. I wanted to follow up on predation. At the 
April 20 hearing, Mr. LaMalfa talked about predation, what the 
Federal agencies have done already and what is being proposed 
from the Federal agencies. What we got back was from the 
Administration to fulfill an action required by the 2009 BiOp, 
they are basically talking about capturing and relocating 
striped bass.
    Is the capture and relocation of the striped bass so that 
they don't eat anywhere from 93 to 98 percent of the salmon we 
are trying to save? First of all, do you agree with the 
relocation? And if not, what else would you propose?
    Mr. Sutton, let's start with you. I would just ask for a 
quick response so I can get to everybody.
    Mr. Sutton. Predation is a huge issue that is working 
against everything we are doing, and it is a stressor that 
needs serious and immediate attention.
    Mr. Denham. Thank you.
    Mr. Murillo?
    Mr. Murillo. Yes. Predation, as we mentioned, is something 
we do have to address. Whether we relocate the bass or not, I 
am not sure what the benefit of that is, so I will leave that 
up to the fisheries to maybe comment on that.
    Mr. Denham. Thank you.
    Mr. Thom. OK. And I would just add, Mr. Denham, we have 
been supportive of predation efforts. We had this conversation 
before. We are studying it, we are looking at hot spots. I 
think predator removal, predator relocation, and getting the 
predators out of these hot spots has been shown to be 
effective. But there is ongoing research about the predator 
effects throughout the system and other methods that might be 
able to be taken to deal with them as well.
    Mr. Denham. Thank you.
    Mr. Borck?
    Mr. Borck. I don't like invasive species, but I don't 
believe that removing a single predator would fix a problem as 
big as this. There are a lot of other predators out there. I 
don't see it as a panacea. You can take the creel limits off 
and let sportsmen catch all you want. I don't think that would 
fix it.
    Mr. Denham. Thank you.
    Mr. Azhderian?
    Mr. Azhderian. I do think that addressing hot spots is 
certainly the right place to start. Dr. Hayes, with the 
National Marine Fisheries Service, has done a lot of that 
research. I think would agree with that conclusion.
    I think the part that is most frustrating for us, though, 
is that there is a great deal of uncertainty about standards in 
the biological opinions that affect the rate of pumping, and 
those are imposed with great vigor. When we are sitting down 
and talking about other stressors such as predation, the 
response is often, ``Well, we are not sure, so we are going to 
study it.'' So, it is sort of the disproportionate response to 
the problem that I think we struggle with quite often.
    Mr. Denham. Thank you.
    And just to follow up, Mr. Borck, I am a little bit 
surprised by your answer. Obviously, I don't think this is a 
panacea either. I think we actually need more storage. The 
storage would solve a lot of our problems. But if 98 percent of 
the fish are getting--the fish that you want to fish, the 
23,000 jobs that you want to make sure we still have, if 98 
percent of the fish are getting eaten by non-native species, 
isn't any type of help--I mean, if we could save an extra 3, 4 
percent, doesn't that help your business?
    Mr. Borck. Like I said, I am fine with the concept of 
taking the creel limits off and allowing sports fishermen to 
catch all the stripers they want. I just don't see it having 
that big an impact ultimately. Unfortunately, if you take 
stripers out, then shad get bigger, shad can eat salmon when 
they are as small as a guppy. So we may just be trading one 
predator for another. So, I don't see it as a good enough fix 
to key in on it.
    Mr. Denham. I don't see it as a good enough fix either, but 
I certainly see a doubling goal of the fish that--if you are 
doubling the amount of fish that are eating all of the 
threatened and endangered species, that might not be the best 
policy for our Federal Government to take.
    I yield back the rest of my time.
    Dr. Fleming. The gentleman yields.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. Thank you all for 
being here this morning.
    Being from the state of Washington, I am somewhat reluctant 
to get engaged in this California water war. I am like Mr. 
Costa, it is easy to let it drive you crazy. But if it weren't 
so important to not only the economy, but also the food supply 
of our whole country, as well as how you solve, or how we help 
you solve, your water issues will greatly impact how we solve 
water issues in the Pacific Northwest as well. So, this is a 
big issue.
    I heard from Mr. LaMalfa in his opening comments some 
frustration about contrary policy by different agencies in the 
basin, or in the state. I think I heard that there were 
competing biological opinions and some interest in connecting 
those or making them into one, if that is a possibility.
    Mr. Azhderian, you also expressed some frustration 
associated with a lack of transparency and collaboration. From 
those of us from the outside looking in, these California water 
wars have been going on for a long time. There must be a better 
way. And I think maybe we have touched on some of those avenues 
of doing this better, the collaboration, the transparency, all 
looking toward a similar goal of increased water availability, 
returning fish populations, habitat, but also protecting our 
very important agricultural industry and fishing industry.
    So what would a better model look like? All of you from 
different perspectives. I will start with you, Mr. Azhderian.
    Mr. Azhderian. Yes, I think a better model is one that is 
inclusive. The Federal agencies have talked about improved 
collaboration among them. And I do believe that that is true. I 
think Reclamation, in particular, has done its level best to 
try and communicate outcomes to users of CVP water. But 
communicating outcomes is something very different than 
actually collaborating on solutions.
    So, I think broadening the inclusion in the questions and 
testing hypotheses, developing solutions, and using the unique 
abilities of water agencies, in particular, to solve the 
problems is really an asset that we have underutilized, a great 
tool moving forward. Moving away from the common processes 
where we are relying strictly on statistical analyses, or 
largely on that, and getting into doing the research and 
understanding what the underlying biological factors are, is 
another essential key if we are going to make our water 
management and our environmental management actions more 
efficient and more effective. After all, what we are all 
interested in is effective environmental protection.
    There are a lot of tools that are out there, there are 
models from the Bay Delta Accord as far back as the early 
1990s, all the way to recently with the Delta Reform Act that 
talk about the importance of comprehensive solutions and 
inclusive collaborations. And there are several recommendations 
from a number of science panels as well about how that can be 
achieved. There are minds greater than mine that have commented 
on this. There is a wealth of information, we just need to 
start using it.
    Mr. Newhouse. Real quickly, could I ask the fisherman, Mr. 
Borck, and I will go to our farmer as well. And then if there 
is time, hopefully from the agencies.
    Mr. Borck. The quick answer is I am a harvester. I have to 
leave modeling and those kind of situations to scientists, guys 
with Ph.D.'s. My trust has always been in the best available 
science.
    Mr. Newhouse. OK. I appreciate that.
    Mr. Sutton.
    Mr. Sutton. Similar answer. A more robust process is needed 
to ensure those regulatory actions are informed by sound 
science and there is accountability and a measure to achieving 
outcomes. There is a model we can follow just within David's 
region at Klamath where they spent 2 years on a collaborative 
process bringing in all the stakeholders to form a VA and 
resulted in one biological opinion. In my opinion, that effort 
is something we need to focus on.
    Mr. Newhouse. And then, Mr. Murillo, if you could speak for 
the Federal Government, where can Congress help?
    Mr. Murillo. Well, I agree with the statements made here 
today that we try to be transparent. We can be more inclusive, 
but inclusive means not just including the Ag. community, we 
also have to include the environmental groups, the tribes, and 
the power users, bringing them all together. So I think, as we 
move forward, that is something that we will try to improve on.
    Mr. Newhouse. Well, it is not going to get any easier with 
California's population expected to double in the next 25 years 
or so.
    Mr. Murillo. It is getting bigger.
    Mr. Newhouse. Yes, so we have a problem that we have to 
solve.
    Mr. Murillo. Absolutely.
    Mr. Newhouse. Thank you.
    Thank you, Mr. Chairman.
    Dr. Fleming. OK. We thank the witnesses for your valuable 
testimony today. Members of the subcommittee may have 
additional questions for witnesses. We ask you to respond to 
these in writing. The hearing record will be open for 10 days 
to receive these responses.
    Again, I would like to thank our staff. The preparation for 
a hearing like this can take many hours, 40 or more hours, and 
it is a lot of work. So, we appreciate our staff and all the 
great work they do. I will certainly cite Kiel, in particular, 
as being a real leader in all of this. We thank Kiel for that.
    So, if there is no further business, without objection, the 
subcommittee stands adjourned.

    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
